<html>
<title> - ENCOURAGING FAMILY-FRIENDLY WORKPLACE POLICIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
             ENCOURAGING FAMILY-FRIENDLY WORKPLACE POLICIES

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 3, 2009

                               __________

                            Serial No. 111-5

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                  U.S. GOVERNMENT PRINTING OFFICE
47-575                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
  Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Carol Shea-Porter, New Hampshire     Tom Price, Georgia,
Donald M. Payne, New Jersey            Ranking Minority Member
Raul M. Grijalva, Arizona            Peter Hoekstra, Michigan
Timothy H. Bishop, New York          Joe Wilson, South Carolina
Phil Hare, Illinois                  John Kline, Minnesota
Gregorio Kilili Camacho Sablan,
  Northern Mariana Islands


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 3, 2009....................................     1

Statement of Members:
    Price, Hon. Tom, Ranking Republican Member, Subcommittee on 
      Workforce Protections......................................     4
        Prepared statement of....................................     5
        Questions submitted for the record.......................    40
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington, prepared statement of........    39
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     3
        Additional submissions:
            The National Partnership for Women & Families........    42
            Joe Solmonese, president, Human Rights Campaign......    44

Statement of Witnesses:
    Appelbaum, Eileen, professor, School of Management and Labor 
      Relations, director, Center for Women and Work, Rutgers 
      University.................................................    19
        Prepared statement of....................................    21
    Bernard, Michelle D., president, Independent Women's Forum...    15
        Prepared statement of....................................    17
    Boushey, Heather, senior economist, Center for American 
      Progress Action Fund.......................................    10
        Prepared statement of....................................    12
        Additional remarks supplied..............................    47
    Clay, Rebia Mixon, homecare worker, on behalf of the Service 
      Employees International Union (SEIU).......................     8
        Prepared statement of....................................     9
        Responses to questions submitted.........................    41


             ENCOURAGING FAMILY-FRIENDLY WORKPLACE POLICIES

                              ----------                              


                         Tuesday, March 3, 2009

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Lynn Woolsey 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Woolsey, Shea-Porter, Hare, 
Sablan, Price, and Kline.
    Also present: Representative Holt.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Fran-Victoria Cox, Staff Attorney; Lynn 
Dondis, Labor Counsel, Subcommittee on Workforce Protections; 
David Hartzler, Systems Administrator; Jessica Kahanek, Press 
Assistant; Sara Lonardo, Junior Legislative Associate, Labor; 
Joe Novotny, Chief Clerk; Meredith Regine, Junior Legislative 
Associate, Labor; Michele Varnhagen, Labor Policy Director; 
Robert Borden, Minority General Counsel; Cameron Coursen, 
Minority Assistant Communications Director; Ed Gilroy, Minority 
Director of Workforce Policy; Rob Gregg, Minority Senior 
Legislative Assistant; Alexa Marrero, Minority Communications 
Director; Jim Paretti, Minority Workforce Policy Counsel; Molly 
McLaughlin Salmi, Minority Deputy Director of Workforce Policy; 
and Linda Stevens, Minority Chief Clerk/Assistant to the 
General Counsel.
    Chairwoman Woolsey [presiding]. A quorum is present. The 
hearing of the Subcommittee on Workforce Protections will come 
to order. And I will give my opening statement, then our 
Ranking Member Price will give his opening statement, then we 
will introduce all of you wonderful people, and we will go from 
there.
    I want to thank all of you for being here at this hearing 
encouraging family-friendly policies. We have got a pretty good 
roomful, considering yesterday we weren't in session because of 
the snow, and people are coming in on airplanes as we speak. So 
this is our hearing and it will be in the record, and members 
will be coming as they arrive in town.
    Balancing work and family is a very important issue for 
millions of workers in this country. That is why today's 
hearing is called, ``Encouraging Family-Friendly Policies.'' It 
is also why this subcommittee is picking up where we left off 
last session, the 110th Congress, when we had four hearings on 
balancing work and family.
    Of course, this issue has taken new urgency in light of the 
current economic crisis. But before I proceed with my full 
opening statement, I wanted to make an introduction.
    First of all, I would like to welcome Representative Tom 
Price from the Sixth District of Georgia, who has been a member 
of this subcommittee but who is now the Ranking Member. 
Welcome.
    Dr. Price. Thank you, Madam Chair.
    Chairwoman Woolsey. I look forward to working with you.
    Dr. Price. Thank you.
    Chairwoman Woolsey. I also want to thank Representative Joe 
Wilson, who was the Ranking Member for the last Congress, and 
we worked--last two Congresses together, and I found him a very 
amiable Ranking Member, and we will be working together at the 
same good tenor. I will miss him, but he stayed on this 
subcommittee, and I am pleased with that.
    Now, on the Democratic side, we have two new members of our 
subcommittee. First, Raul Grijalva, who can't be here this 
morning, is a new member but has been a member of the 
committee, the full committee, of Education and Labor. And he 
has served with distinction, and we are delighted that he will 
be joining this. He is also my co-chair of the Progressive 
Caucus, so we do a lot together, believe me.
    Second, and most important of all, the brand-new member, 
Gregorio Sablan, the first non-voting delegate from the 
Commonwealth of the Northern Marina Islands--Mariana Islands. 
Forgive me.
    Delegate Sablan has served as special assistant for 
management and budget for the Island's governor. And from 1982 
to 1986, he served in the Northern Mariana House. In the 1980s, 
he worked as a special assistant to Daniel Inouye of Hawaii. 
Welcome, Mr. Sablan. We are so glad to have you.
    Now, we don't have any new members on the other side, so I 
am going to go on with my opening statement.
    The final crisis--defined natural crisis of our country is 
facing particularly devastating times for workers. In January 
alone, we lost 598,000 jobs, pushing the unemployment rate to 
7.6 percent. And that was in January, and it has gotten worse, 
and today is March the 3rd. So, it is just so much worse 
already.
    Over 11.6 million Americans have lost their jobs, and, 
sadly, we know this is not the end of the story, nor is it the 
whole story--7.8 million people are under-employed, which means 
they are working part-time jobs, either because their hours 
have been cut or because they are unable to find full-time 
work.
    Moreover, 4.1 million people have given up looking for work 
altogether. They have just given up. So families are suffering 
very badly.
    Some people have no income, and others have to rely on one 
income when they are budgeted for two, and they can't always 
count on the remaining income because the employer may cut back 
the one worker in the family's work hours.
    So here is something surprising. Listen to this. This 
really surprised me. More men are losing their jobs than women, 
but this results in more women being responsible as the sole 
major support and the sole breadwinner for their families.
    And with women earning less than men--they earn 78 cents 
for every dollar earned by a man--everyone suffers. Men, women 
and families are living on less.
    Forty years ago, I was a single working mother supporting 
three children, so I know what it is like to constantly worry 
about economic security for my family. Later, I was remarried, 
and I was still a working mother, but I had four children--four 
teenagers, if you can believe it--and working as a human 
resources manager. And I did that for over 20 years.
    During that time, I not only had my own experience as a 
working parent, but I saw how important employee benefits, 
benefits such as paid leave, paid sick days, healthcare and all 
of that are to workers in both good times and bad times.
    But when there is only one working parent in a family, then 
it is essential that that person's employer helps them with 
what they need to bridge work and family. There is substantial 
evidence, and we all know that, that employers who provide 
these benefits actually improve their bottom line.
    So, we share President Obama's optimism that the recovery 
plan currently being implemented will get people back to work. 
But we also know that we need to pass legislation that will 
help ease the burden on working families so they can balance 
their jobs and their responsibilities to their families.
    So today, I look forward to hearing from each of you with 
your testimony and learning more from you as we put together 
our plan for helping working families bridge both 
responsibilities, the responsibility to their employer and the 
responsibility to their family.
    Now, I defer to Ranking Member Price for his opening 
statement.
    [The statement of Ms. Woolsey follows:]

Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman, Subcommittee on 
                         Workforce Protections

    I want to thank everyone for coming to this hearing on 
``Encouraging Family-Friendly Policies.'' Balancing work and family is 
a very important issue for millions of workers in this country. And 
that is why the subcommittee is picking up where we left off last 
session when we had four hearings on balancing work and family.
    Of course, this issue has taken new urgency in light of the current 
economic crisis. But before I proceed with my full opening statement, I 
want to make some introductions.
    Representative Tom Price from the 6th district of Georgia has been 
a member of this subcommittee but now he is its ranking member. I want 
to welcome him and look forward to working with him on the important 
issues before this subcommittee.
    I also want to thank Representative Joe Wilson from the 2nd 
district of South Carolina, who was a great ranking member. While I 
will miss him in that capacity, I am pleased that he remains a member 
of the subcommittee.
    On the Democratic side, we are fortunate to have two new members of 
the subcommittee.
    Representative Raul Grijalva of Arizona is no stranger to the 
Education and Labor Committee and has served on it with distinction. He 
is also my co-chair on the Progressive Caucus, and so I know that he is 
a great champion of working families.
    Welcome, Representative Grijalva.
    Gregorio Sablan, the first nonvoting delegate from the commonwealth 
of the Northern Mariana Islands. Delegate Sablan has served as Special 
Assistant for Management and Budget for the Islands' Governor, and from 
1982 to 1986, he served in the Northern Marianas House. In the 1980's 
he worked as a special assistant to Senator Daniel Inouye of Hawaii.
    Welcome Delegate Sablan to the subcommittee.
    The financial crisis our country is facing is particularly 
devastating for workers. In January alone, we lost 598,000 jobs, 
pushing the unemployment rate to 7.6 percent, and it is worsening. Over 
11.6 million Americans have lost their jobs.
    And sadly, this is not the whole story.
    7.8 million people are underemployed, which means they are working 
at part-time jobs either because their hours have been cut or because 
they are unable to find full-time work.
    Moreover, 4.1 million people have given up looking for work 
altogether. So families are suffering badly.
    Some people have no income, and others have to rely on one income 
when they were budgeted for two. And they can't always count on the 
remaining income because employer cut-backs continue.
    Here's something surprising: more men are losing their jobs than 
women resulting in more women being responsible for the sole or major 
support of their families. And with women earning less than men (78 
cents to every dollar earned by a man), men, women and families are 
living on less.
    40 years ago I was a single-working mother, supporting 3 children.
    So I know what it is like to constantly worry about the economic 
security of my family. Later as a human resource manager, I saw how 
important employee benefits--such as paid leave, paid sick days and 
health care--are to workers in both good times and bad.
    And there is substantial evidence that they ultimately improve the 
bottom line of the employer.
    We share President Obama's optimism that the recovery plan 
currently being implemented will get people back to work.
    But in addition, we also need to pass legislation that will help to 
ease the burden on working families to balance their jobs and their 
family responsibilities.
                                 ______
                                 
    Dr. Price. Thank you, Madam Chair, and I, too, want to 
congratulate you on chairing this committee, and I look forward 
to working with you during this new Congress----
    Chairwoman Woolsey. Thank you.
    Dr. Price [continuing]. As we try to solve the remarkable 
challenges that we face as a nation.
    We are here today for the first subcommittee hearing of 
this 111th Congress, and the issues that we will address are so 
vital and important to today's workforce, not just today but 
throughout this upcoming Congress.
    I want to thank the distinguished panel for joining us 
today and taking time to share your experience and your 
expertise on a very chilly morning, not the most comfortable of 
mornings to get around in Washington.
    Workplace flexibility and work-life benefits have become a 
bottom-line issue for many companies, becoming critical 
components of workplace effectiveness and attracting human 
capital. Research has shown that such programs can boost 
motivation, productivity and morale for workers, and I would 
suggest that most employers understand the effectiveness and 
necessity of having a family-friendly workplace.
    And while this issue remains an important one for many 
American workers, it is not surprising that, given the current 
state of the economy, job security has surpassed work-family 
balance as the top concern of the majority of workers.
    Many workers are increasingly concerned about losing their 
jobs, not having enough money to pay their bills, and seeing 
their retirement accounts shrink. Nearly half of those surveyed 
in a recent Associated Press poll said that they worry about 
becoming unemployed, almost double the percentage at this time 
last year.
    So as we engage in policy discussions about workplace 
benefits and coverage, we must not ignore the implications of 
placing costly government-imposed mandates on employers, many 
of whom are small businesses trying to stay afloat in the 
current economic climate. The reality is that businesses today 
are struggling with shrinking budgets, tightened credit, 
decreased demand for their products and services, and now a 
federal budget proposal that will drastically increase taxes on 
small businesses.
    Mandating new paid benefits, and thereby increasing the 
cost of labor, may well have the effect of jeopardizing many 
employers' ability to maintain employment levels and further 
stifle job creation and opportunity.
    Having Congress dictate a one-size-fits-all labor structure 
for all businesses will eventually limit creative work 
arrangements between employers and their employees.
    So what can be done to encourage the creation of work 
environments that are family-friendly and flexible, and yet 
meet the needs of workers and the considerations of the 
businesses? We might want to begin by looking at removing 
obstacles to outdated federal laws and regulations that 
complicate or even prevent employers from working out flexible 
arrangements with their employees.
    For example, legislation has been introduced by our 
distinguished colleague from Washington State, Cathy McMorris 
Rogers, which would allow private sector workers to enjoy the 
same right that public sector workers already have, and that is 
to choose for themselves whether to take overtime pay as cash 
wages or to bank it as paid time off at their own discretion.
    Employees have different needs throughout their careers. 
Some may desire flexible work schedules to accommodate the 
needs of young children. Others may have elderly relatives to 
care for or a desire to upgrade or expand their job skills or 
education.
    Likewise, employers have different business considerations 
based on the type or the size of their company. In light of 
today's trying economic circumstances, we should be mindful of 
the realities facing businesses. When we do, then the challenge 
for policymakers is to find ways to encourage the availability 
of family-friendly programs without interfering at the federal 
level in ways that are counter-productive to both workers and 
employers.
    Again, I want to welcome our witnesses, and I look forward 
to your testimonies.
    [The statement of Mr. Price follows:]

   Prepared Statement of Hon. Tom Price, Ranking Republican Member, 
                 Subcommittee on Workforce Protections

    Good morning and thank you, Chairwoman Woolsey.
    As you have noted, we are here today for the first Subcommittee 
hearing of the 111th Congress. I look forward to working with you, 
Madame Chair, as we consider many of the important issues confronting 
today's workforce.
    I would like to begin by thanking our distinguished panel of 
witnesses for appearing today. We appreciate that they have taken time 
out of their busy schedules to share their expertise and experiences 
with us.
    Workplace flexibility and work/life benefits have become a bottom 
line issue for many companies, becoming critical components of 
workplace effectiveness and attracting human capital. Research has 
shown that such programs can boost motivation, productivity and morale 
for workers, and I would suggest that most employers understand the 
effectiveness and necessity of having a family-friendly workplace.
    And while this issue remains an important one for many American 
workers, it is not surprising, given the current state of the economy, 
that job security has surpassed work-family balance as the top concern 
for a majority of workers.
    Many workers are increasingly concerned about losing their jobs, 
not having enough money to pay the bills, and seeing their retirement 
accounts shrink. Nearly half of those surveyed in a recent Associated 
Press poll said they worry about becoming unemployed--almost double the 
percentage at this time last year.
    As we engage in policy discussions about workplace benefits and 
coverage, we must not ignore the implications of placing costly 
government-imposed mandates on employers, many of whom are small 
businesses trying to stay afloat in the current economic climate. The 
reality is that businesses today are struggling with shrinking budgets, 
tightened credit, decreased demand for their products and services, and 
now a federal budget proposal that will drastically increase taxes on 
small businesses.
    Mandating new benefits, and thereby increasing the cost of labor, 
may well have the effect of jeopardizing many employers' ability to 
maintain employment levels and further stifle job creation and 
opportunity. Having Congress dictate a ``one-size-fits-all'' labor 
structure for all businesses will eventually limit creative work 
arrangements between employers and their employees.
    What can be done to encourage the creation of work environments 
that are family-friendly and flexible, and yet meet the needs of the 
workers and the considerations of the business? We might want to begin 
by looking at removing obstacles in outdated federal laws and 
regulations that complicate or even prevent employers from working out 
flexible arrangements with their employees. For example, legislation 
has been introduced by our distinguished colleague from Washington 
state, Cathy McMorris Rodgers, which would allow private sector workers 
to enjoy the same right that public sector workers already have--that 
is, to choose for themselves whether to take overtime pay as cash 
wages, or to bank it as paid time off, at their discretion.
    Employees have different needs throughout their careers. Some may 
desire flexible work schedules to accommodate the needs of young 
children.
    Others may have elderly relatives to care for, or a desire to 
upgrade and expand their job skills or education. Likewise, employers 
have different business considerations based on the type or size of the 
company.
    In light of today's trying economic circumstances, we should be 
mindful of the realities facing businesses. When we do, then the 
challenge for policy-makers is to find ways to encourage the 
availability of family-friendly programs, without interfering at the 
federal level in ways that are counterproductive to workers or 
employers.
    I again welcome our witnesses and look forward to their testimony.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Without objection, all members will have 14 days to submit 
additional material for the hearing record.
    I would like to introduce our very distinguished panel of 
witnesses that are here with us this morning. First, Rebia 
Mixon Clay, a home care worker from Illinois and currently 
living in Chicago's South Side. She attended DuSable High 
School in Chicago, but dropped out as a teenager to get married 
and raise four children. Ms. Clay returned to high school at 
the age of 47 and earned her degree. Congratulations, Rebia.
    She then went on to attend Truman College and Robert 
Morris, and looks forward to being able to complete her college 
degree in the near future. Ms. Clay is a member of the SEIU and 
currently serves on the executive board of her local healthcare 
Illinois--in Indiana.
    Heather Boushey is a senior economist at the Center For 
American Progress, where she studies working families and 
trends in the US labor market. Prior to joining the Center, she 
was a senior economist with the Joint Economic Committee of the 
US Congress.
    Before that, she was a senior economist with the Center for 
Economic and Policy Research. Dr. Boushey has written 
extensively on labor issues, including tracking the recession 
and its impact on workers and their families. Boushey received 
her Ph.D in economics from the New School for Social Research 
and her BA from Hampshire College. Welcome.
    Michelle Bernard is president and CEO of the Independent 
Women's Forum, IWF, a position she has held since January 2006.
    Before IWF, she was a partner in Patton-Boggs and served in 
the executive office of the Bush-Cheney 2000 Inaugural 
Committee. Well, we know who is our Republican representative 
on the--no, I am just--we always have to have this balance, so 
we make sure we can do that.
    Ms. Bernard was also the chair of the District of Columbia 
Redevelopment Land Agency. She graduated from Howard University 
and the Georgetown University Law Center. Welcome.
    And now, Representative Holt is going to introduce Dr. 
Appelbaum, because they are all so proud of you. Actually, if 
Donald Payne had been here--he is on an airplane--they would 
have been drawing straws to see who got to introduce you, Dr. 
Appelbaum.
    Mr. Holt. Thank you, Madam Chair, and thank you for 
allowing me to join you this morning.
    On behalf of Representatives Payne and Andrews who sit on 
this committee, and really on behalf of all the representatives 
of New Jersey, I would like to introduce someone of whom we in 
New Jersey are very proud.
    Dr. Eileen Appelbaum has 20 years of experience in carrying 
out empirical research on workplace practices and labor 
management. She is a professor of management and labor 
relations at Rutgers and director of the Center For Women And 
Work. She holds a concurrent position as professor in the 
People Management and Organizations Department of University of 
Manchester, and she is also on leave, spending time at the 
Center for Economic and Policy Research.
    Dr. Appelbaum has made significant contributions to the 
people of the state of New Jersey and the country, and was 
instrumental in passage of New Jersey's Paid Leave Insurance 
Bill, which provides wage replacement for workers who need 
family leave for birth, adoption, or to care for a family 
member with a serious health condition.
    She has a Ph.D in economics from the University of 
Pennsylvania, but what is most important for our concerns here 
today, she understands economics and policy. She understands 
how the numbers fit into policies, and she understands 
economics and people. She understands the people, in particular 
the women, behind the numbers, and does extraordinarily good 
work in policy that is relevant to people's lives.
    And so, I thank you, Madam Chair, for inviting Dr. 
Appelbaum to testify today.
    Chairwoman Woolsey. You are welcome, and thank you for 
joining us. Congressman Holt is on the full committee, but not 
a member of the subcommittee, and is interested in this 
subject. So, thank you for being here with us this morning.
    Okay, and thank all of you for being here.
    Okay. Now, just so you understand how the lights work, for 
those of you who have not testified before the committee, let 
me explain the system. We have the 5-minute rule. Everyone, 
including members, is limited to 5 minutes of presentation or 
questioning.
    So that means, when the green light is on, you begin to 
speak. Turn on your microphone, too. That is always so 
important, because we all yell, ``microphone,'' and it is kind 
of hard on you.
    And when you see the yellow light, it means you have 1 
minute left, and when you see the red light, your time expires. 
You are not going to fall through a trap on the floor, but that 
is absolutely the time to start tying it together if you 
haven't already, because even my Ranking Member and myself and 
all the members, we have 5 minutes each also. And if we spend 
our whole 5 minutes asking you a question or giving a speech 
and don't give you time to answer it, then that is our loss. So 
this is the 5-minute rule.
    So now we are going to hear from our first witness, Ms. 
Clay.

     STATEMENT OF REBIA MIXON CLAY, HOME HEALTH CARE WORKER

    Ms. Clay. Thank you very much for having me here today.
    I am a home care worker. The job of a home care worker is 
to take care of someone's mother, brother, husband or wife, 
aunt or grandfather, when they can't take care of themselves.
    I live in Chicago, where I was born and raised. My client 
is one of the greatest people God has ever created. He is 
unique. He is full of love and laughter, and every day he makes 
this world a greater place. He is my brother.
    Caesar was born 43 years ago with cerebral palsy and also 
suffers from paranoid schizophrenia. My mother would never give 
up on him, and took care of him until she died in 1999. My 
brothers and sisters tried to take care of him, but they were 
raising their family.
    My children were grown by then, so I left my job as a 
property manager and got qualified to be a home care worker. It 
was a big pay cut, but, if I hadn't done that, he would have 
been sent to an institution, and that just couldn't happen.
    My employer, the State of Illinois, only pays me for 8 
hours of work, but it is more than a full-time job. Caesar 
cannot dress himself, though he tries, and he picks out some 
strange outfits at times. He cannot clean himself, use the 
restroom on his own, or do many of the everyday things most of 
us do without thinking twice about it.
    I thank God that the state provides so much help for my 
brother, but I could use some help for myself. I, like hundreds 
of other caregivers in Illinois, have no sick days and no paid 
time off. Three years ago, my husband became very sick. He 
passed away last April, and before that, he needed a lot of 
care.
    I had to care for him and my brother at the same time. I 
couldn't afford to take any unpaid time off to focus on my 
husband because the three of us were surviving only on my 
income.
    I know this hearing is about good family policies, but 
everything comes back to money, something nobody seems to have 
enough of these days. I recently became a member of the Service 
Employees International Union, and now I make $9.85 an hour, 
and that is $1.50 increase from before the Union, but it 
doesn't go far.
    I get paid twice a month. One check goes to my rent 
entirely, and the other goes to my bills. They include $200 a 
month electrical bill, $500 for gas, $160 for the phone and 
cable, since we cannot use antennas any longer. I constantly 
have to take from Peter to pay Paul, and had to file bankruptcy 
because I just could not pay my household bills and my hospital 
bills.
    I recently received a notice that the state may cut my 
hours because of budget cuts. If that happens, I don't know how 
I am going to manage. My children help me financially when they 
can, but they have children of their own, and now money is 
tighter than ever.
    My youngest son recently lost his job, laid off because of 
the economy. He stays with me off and on. He helps me watch 
Caesar during the day, and looks for work when he can.
    Nobody in my family is rich, but, whenever someone needs 
something extra, we all put our pennies together as best we 
can. I love my brother, and I am inspired by him every day. But 
I would like to go and visit my dentist, who I haven't seen in 
13 years.
    I would like to get a real pair of glasses. These are from 
the neighborhood store. I would like to afford a mammogram. I 
would like to know if that I became seriously ill, I could take 
time from work and not have my utilities cut off, or without 
losing my home and not having to worry about my brother ending 
up in an institution.
    My dream is to go back to college and get my degree. And if 
I had personal days, that would make it much easier for me to 
do.
    I came here today because I want to share my story. There 
are people like me in every town across the country, people who 
work hard and do their best to provide for their families.
    Our stories are different, but our hope is the same--it is 
that you help give us change that works. I just hope I have 
helped you find the courage and desire to make that difference.
    God bless you, and God bless your work. Thank you.
    [The statement of Ms. Clay follows:]

 Prepared Statement of Rebia Mixon Clay, Homecare Worker, on Behalf of 
            the Service Employees International Union (SEIU)

    Thank you very much for having me here today.
    I am a home care worker. The job of a home care worker is to take 
care of someone's mother, brother, husband or wife, an aunt or 
grandfather when they cannot take care of themselves. I live in 
Chicago, where I was born and raised, and, my client is one of greatest 
people God has ever created. He is unique, he is full of love and 
laugher and every day he makes this world a greater place. He is my 
brother.
    Caesar was born 43 years ago with cerebral palsy and also suffers 
from paranoid schizophrenia. My mother would never give up on him and 
took care him until she died in 1999. My brothers and sisters tried 
taking care of him, but they were raising their families. My children 
were grown by then, so I left my job as a property manager and got 
qualified to be a home care worker. Caesar moved in with my husband and 
me. It was a big pay cut, but if I hadn't done that, he would be sent 
to an institution, and that just can't happen.
    My employer, the state of Illinois, only pays me for eight hours of 
work, but let me tell you it is more than a full time job. Caesar 
cannot dress himself, though he tries, and picks out some of the 
strangest outfits. He cannot clean himself, use the restroom on his 
own, or do many of the everyday things most of us don't even think 
twice about. I thank God that the state provides so much help for my 
brother but I could use some help for myself. I, like hundreds of other 
caregivers in Illinois, have no sick days and no paid time off of any 
kind.
    Three years ago, my husband became very sick. He passed away last 
April, and before that he needed a lot of care. I had to care for him 
and my brother at the same time. I couldn't afford to take any unpaid 
time off to focus on my husband, because the three of us were surviving 
only on my income.
    I know this hearing is about good family policies but everything 
comes back to money, something nobody seems to have enough of these 
days. I recently became a member of the Service Employees International 
Union and now make $9.85 an hour, a $1.50 increase from before the 
union, but it doesn't go very far. I get paid twice a month, one check 
goes to the rent and the rest, $926, must go to everything else. After 
$200 for the electricity, $500 for gas and now $160 for phone and cable 
TV since we cannot use antennas anymore. The money goes so fast.
    You may have noticed I didn't even mention things like food or my 
church tithes, which always come first. So, we find the places where we 
can cut back. I am on every payment plan you can imagine and make sure 
I pay just enough every month so they don't cut off the heat but I 
never can pay them all off. I constantly have to take from Peter to pay 
Paul, and had to file for bankruptcy because I just could not pay all 
my household and medical bills. Now my credit is ruined. I was recently 
notified that because of budget cuts I might have my hours cut. That 
won't cut down on any of the work I have to do, but it would reduce my 
paycheck, and I don't know how we would manage.
    Even though my job is to provide for the health of my Caesar, I do 
not have health care except for general clinic visits thanks to my 
union contract. Even then, with no paid sick days and a $15 co-pay I 
cannot afford to go very often. I was recently diagnosed with diabetes 
and the doctor said I had to go on insulin or I would die. I went to 
get the testing strips, pads and everything else and it cost $417. I 
had to ask my family for help just so I could get the medicine I need 
to live. Now, I have found a way to get my medicine through the county 
hospital for free but it takes two whole days of sitting and waiting in 
line for the help. That is two days worth of unpaid time. I do it 
because I cannot afford to die, but there has to be a less expensive 
way to live.
    My children help me financially whenever they can, but they have 
children of their own, and now money is tighter than ever. My daughter 
has nine children, but gave me her stimulus check to help pay for my 
husband's funeral. I'm sure she could have used the money herself, but 
I couldn't have afforded it otherwise. Nobody in my family is rich, but 
whenever someone needs something extra we all put our pennies together 
as best we can.
    My youngest son recently lost his job, laid off because of the 
economy. He stays with me off and on. He helps watch Ceasar during the 
day, and looks for work when he can. My daughter in Christ is in school 
to be a nurse, and needed a place to stay. So when she offered to stay 
with my brother so I could come here to address you here in Washington 
DC, I readily agreed.
    I love my brother and I am inspired by him every day, and without 
fail every time we go to church. But I would like to go to visit my 
dentist, who I haven't seen in 13 years. I would like to get a real 
pair of glasses. I would like to be able to afford a mammogram. I would 
like to know that if I became seriously ill I could take time away from 
my job having our utilities cut off, or without losing my home, and not 
have to worry that my brother would end up in an institution. I would 
like not to have to consider living on a street where I'm afraid to 
step outside just to lower my rent. My dream is to go back to college 
and finish my degree in business, and if I had personal days, that 
would make it much easier for me to do that. In the meantime, I do my 
best with what I have.
    I came here today because I wanted to share my story with you. 
There are people like me in every town across this country, people who 
are working hard and doing their best to provide for their families. 
Our stories are different but our hope is the same--that you help give 
us change that works. It wouldn't take very much to make a big 
difference in our lives. We cannot fix everything overnight but we 
can't give up. I just hope I have helped you find the courage and 
desire to make that difference. Thank you for your time. God bless you 
and God bless your work.
    Chairwoman Woolsey. Thank you.
    Dr. Boushey?

  STATEMENT OF HEATHER BOUSHEY, SENIOR ECONOMIST, CENTER FOR 
                       AMERICAN PROGRESS

    Ms. Boushey. Thank you, Chairwoman Woolsey and Ranking 
Member Price, for inviting me here to speak today.
    For over a generation now, families have been struggling to 
figure out how to balance work and family responsibilities at 
home. The recession is exacerbating these challenges for 
families. And in my comments today, I want to lay out how the 
recession is affecting families and how it makes the need for 
family-friendly workplaces ever more urgent.
    We must update our antiquated policies and ensure that, as 
we rebuild our economy, we recognize and address the fact that 
both men and women work inside and outside the home.
    Women are increasingly taking on the responsibility of 
supporting families as men's jobs have disappeared. During the 
first 12 months of this now 14-month long recession, men have 
held four out of every five jobs that have been lost. The share 
of men in the United States with a job right now is lower than 
it has ever been. Fewer than seven out of every 10 adult men is 
actually at work today.
    So far, half of the job losses that have occurred have been 
in either construction or manufacturing, two industries where 
men are the overwhelming majority of workers. On the other 
hand, women's' jobs have been sustained over the past year by 
hiring by government and the healthcare sector, where they are 
the majority of workers.
    This recession is amplifying the long-term trend towards 
the importance of women's' earnings to family economic well 
being, yet women continue to earn just 78 cents on the male 
dollar, much of which cannot be explained by differences in the 
kinds of jobs that men and women hold, nor their skill levels.
    As male unemployment rises, paid discrimination has become 
a more pressing issue for millions of families. Since the 
typical husband in a dual earner family brings home just under 
two-thirds of his family's income, the loss of his job, and 
potentially his health insurance, can quickly push a family 
into economic hardship.
    Now, Congress has dealt with some of these issues in 
passing the Lilly Ledbetter Fair Pay Act, but there is 
certainly more to do. The Paycheck Fairness Act still sits in 
front of the Senate, and its passage is critical to ensuring 
that every worker gets a fair day's pay. Further, the 
administration should ensure that the laws we already have on 
the books are in force, and that workers with caregiving 
responsibilities are not discriminated against, especially in 
these tough economic times.
    No family should have to cope with a wage earner losing a 
job because they needed time off to care for a sick child or 
family member. Yet, the Family and Medical Leave Act only 
covers half of the labor force and excludes workers in firms 
with fewer than 50 employees. Expanding this right to smaller 
employers would limit the unemployment of workers with 
caregiving responsibilities, and establishing the right to job-
protected paid sick days would guarantee that no one loses a 
job because of a minor illness.
    The recession has led many employers to cut hours. The 
share of workers who work part-time due to slack work or 
business conditions is now at its highest share since the 
1950s.
    Shorter hours mean that millions will be left without basic 
benefits, such as health insurance coverage and paid time off. 
Access to healthcare benefits for part-time workers is now more 
critical than ever.
    The recession is turning out to be deeper and much more 
protracted than many had predicted even a few months ago. The 
American Recovery and Reinvestment Act is a crucial down 
payment on creating jobs in the months to come and laying the 
foundation for long-term economic growth.
    In particular, the recovery package will help states avoid 
cutbacks, safeguarding some women's' jobs. The Council of 
Economic Advisors estimates that about four out of every 10 
jobs created by the recovery package will likely go to female 
workers.
    But the recovery package alone will not be enough to close 
the gap between what the economy is currently producing and 
what our economy has the capacity to produce. Work-family 
balance policies are an excellent investment in our long-term 
economic growth while also providing short-term economic 
stimulus.
    For example, the Family Income To Respond To Significant 
Transitions Act provides grants to states to implement programs 
that provide wage replacement for those taking leave for the 
birth or adoption of a child, to recover for an illness, or to 
care for an ill family member. This act would encourage states 
to support working families at a time when families especially 
need the benefit of paid time off and job protective leave 
while providing a boost to the states who adopt these policies.
    As families face this tough economy, we must update our 
work-family balance policies to reflect changing needs and a 
transformed workplace. Ensuring that workers can be both good 
employees and good caregivers is a good place to start to 
rebuild our economy and secure our economic future.
    Thank you again for inviting me to speak here today.
    [The statement of Ms. Boushey follows:]

  Prepared Statement of Heather Boushey, Senior Economist, Center for 
                     American Progress Action Fund

    Thank you, Chairwoman Woolsey and Ranking Member Price, and 
Chairman Miller and Ranking Member McKeon, for inviting me to speak to 
you today on these important issues facing working families. My name is 
Heather Boushey and I'm a Senior Economist at the Center for American 
Progress Action Fund.
    For over a generation now, families have been struggling to figure 
how to balance work and responsibilities at home. Most children--over 
70 percent--grow up in a family with either a working single parent or 
with two parents who both work. Because both men and women are 
overwhelmingly likely to be working, most families do not have a stay-
at-home parent or anyone available to provide care if a family member 
falls ill.
    The recession is exacerbating these challenges for families. In my 
comments today, I want to lay out how the recession is affecting 
families and how it makes the need for family-friendly workplace 
policies ever more urgent.
    The recession--so far--is leading to higher unemployment among men 
than women: As of December 2008--which is the latest data available--
men have lost four out of every five jobs shed since the recession 
began in December 2007. This means that in millions of U.S. households, 
a woman is supporting the family.\1\
---------------------------------------------------------------------------
    \1\ Heather Boushey, ``Equal Pay for Breadwinners'' (Washington, 
DC, Center for American Progress, 2009).
---------------------------------------------------------------------------
    This has a number of implications for families:
    <bullet> Families will increasingly rely on women's earnings, which 
are typically lower than men's and are less likely to come with health 
insurance.
    <bullet> The poor economy and lack of job creation means that 
families will need to ensure that they do what they can to keep parents 
working; losing a job because a parent needs some time off to care for 
a sick child, for example, will create increased hardships for families 
since finding a new job is now so much more difficult.
    <bullet> Families are increasingly relying on workers who are 
working less than full-time, so ensuring that those workers have access 
to health insurance and fair pay is increasingly important.
    These new trends, driven by the how the recession is playing out, 
should shape our thinking about what policies are most important to 
support working families who struggle to balance being a good employee 
with being a good caretaker.
    Before I move on, I want to say a few words about the recovery 
plan.
    The recession is turning out to be deeper and more protracted than 
many had predicted even a few months ago. The American Recovery and 
Reinvestment Act was a down payment on creating jobs in the months to 
come and laying the foundation for long-term economic growth. The 
Council of Economic Advisors estimates that the recovery package will 
save or create 3.5 million jobs and that about 4 in 10 of these jobs 
will go to female workers.\2\
---------------------------------------------------------------------------
    \2\ C. Romer. and J. Bernstein, ``The Job Impact of the American 
Recovery and Reinvestment Plan''. (Washington, DC, Council of Economic 
Advisors, 2009).
---------------------------------------------------------------------------
    In particular, the recovery package will help states avoid some 
cutbacks, which places some women's jobs out of jeopardy since women 
make up the majority of state and local government workers. But most 
importantly, the recovery package will get the economy back on track, 
which benefits all kinds of families.
    The recovery package alone, however, will not be enough to close 
the gap completely between what the economy is producing and what our 
economy has the capacity to produce. Millions will remain idle until 
the economy gets fully back on track. As we move forward through the 
budget process, Congress should keep this in mind and continue to focus 
on programs that can stimulate the economy in the short run. Along 
these lines, work-family balance policies are an excellent investment 
in our long-term economic growth and can also provide short-term 
economic stimulus.
Women are increasingly the breadwinners
    Women are taking on the responsibility of supporting families as 
men's jobs have disappeared in this recession. During the first 12 
months of 14-month recession, men so far have seen larger job losses 
than women, having been affected by four out of every five lost jobs. 
As a result, the share of adult men (over the age of 20) in the United 
States with a job is at its lowest point ever: 69.2 percent. Adult 
men's unemployment has risen by 3.2 percentage points since the 
recession officially began, to 7.6 percent in January from 4.4 percent 
in December 2007. Adult women's unemployment has risen by 1.9 
percentage points, to 6.2 percent during that same period from 4.3 
percent.
    Men's job losses have been higher than women's because they work in 
industries harder hit by the downturn. From December 2007 to December 
2008, half of the job losses occurred in either construction or 
manufacturing. Men make up nearly all (87 percent) of construction 
workers and have lost 94 percent of the construction jobs. Likewise, 
men make up just over two-thirds of manufacturing workers, and have 
lost about that same share of the jobs. On the other hand, women's jobs 
have been sustained over the past year by hiring in the government and 
health care sectors.
    The recession is amplifying a long-run trend of women's earnings 
becoming more and more important to their family's economic well-being. 
Between 1980 and 2006, the share of total family income brought home by 
a working wife has risen from 26.7 to 35.6 percent. Indeed, among 
married couples, only those with two earners have seen their inflation-
adjusted family income grow since the 1970s.
    For years, the media tried to tell us that women didn't want to 
work, they were ``opting out,'' and their jobs weren't important to 
their families. This story wasn't true, but it captured the public's 
imagination because if women had simply gone back home, it would have 
solved some of our most intractable social problems. Who should care 
for children after school? Should women earn as much as their male 
colleagues even if they've spent a few years at home raising the kids? 
Should employers be required to provide paid time off for family 
reasons?
    Back in reality, families have needed Mom's earnings for quite some 
time. We didn't want to admit it because in doing so, we'd have to 
finally address how we were going to deal with all the things she used 
to do for us--for free--before she had a day job. And we'd need to make 
sure that she was paid fairly on the job.
    But now, this recession may allow our economic structures to catch 
up to the reality that families face every day. While there's nothing 
good about higher unemployment, it is giving million of families 
someone with the time to turn that ``second shift'' into a first shift 
and assist the breadwinning wives. That's the silver lining that may 
help families survive these difficult times.
Policies that make sense for working families, even in a recession
    Families need policies that ensure that as we rebuild our economy, 
we recognize and address the fact that both men and women work inside 
and outside of the home. The increased importance of women's earnings 
has implications for a number of other work/life balance issues.
    Going back to the recovery for a moment, one policy that could get 
money to states while making long-term investments in working families 
would be for Congress to consider the Family Income to Respond to 
Significant Transitions (FIRST) Act. This legislation provides 
discretionary grants to states to implement programs that provide 
partial or full wage replacement for those taking leave for birth or 
adoption or those who are taking leave to care for themselves, their 
child(ren), spouse, or parent with a serious health condition, as 
defined by the Family Medical Leave Act (FMLA). In helping to defray 
the costs of setting up these programs, the federal government can 
encourage states to support working families at a time when families 
especially need the benefit of paid, job-protected leave.
    Because women are supporting more families, pay discrimination has 
become a more pressing issue for millions of families. Men continue to 
earn more than women in the workplace, which means that the loss of a 
man's income can quickly push a family into economic hardship. In 
three-quarters of dual-earner families, the husband out-earns the wife. 
The typical wife in a dual-earner family brings home over a third (36.5 
percent) of her family's total income. When her husband loses his job, 
they lose just under two-thirds of family income and, in many cases, 
the family's access to health insurance from his employer.
    The lower pay of women is due to a number of factors, but key among 
them is that many women continue to be paid less for doing the same job 
as the man sitting next to them. By the most basic measure women 
continue to earn 78 cents on the male dollar and much of this gap 
cannot be explained by the kinds of jobs men and women hold or their 
skill levels. For example, Blau and Kahn (2007) found that 41.1 percent 
of the gender pay gap remains unexplained. This means that if women 
worked in the same jobs as men and had the same educational and 
experience levels, the gender pay ratio would rise from 80 to 91 
percent of men's.\3\
---------------------------------------------------------------------------
    \3\ While educational attainment levels lowered the discrepancy in 
pay between men and women, other productivity-related factors, such as 
experience, occupation, and industry all increased the gap. Overall, 
nearly a third of the gender pay gap (27.4 percent) can be explained by 
differences in occupations, one-fifth (21.9 percent) can be explained 
by industry, and 10.5 percent can be explained by labor force 
experience.
---------------------------------------------------------------------------
    Congress dealt with some of these issues in passing the Lilly 
Ledbetter Fair Pay Act, but we can still do more. The Paycheck Fairness 
Act is still sitting in front of the Senate and passing it is critical 
to ensuring that every worker gets a fair day's pay. Further, the 
administration can take steps to ensure that the laws we already have 
on the books are enforced and that workers with caregiving 
responsibilities are not discriminated against.\4\
---------------------------------------------------------------------------
    \4\ J. Williams, ``Perspectives on Work/Family Balance and the 
Federal Equal Employment Opportunity Laws'' (Washington, DC: Equal 
Employment Opportunity Commission, 2007),.
---------------------------------------------------------------------------
    Now, more than ever, workers cannot afford to lose a job due to 
work/family balance challenges. Losing a job in this economy could mean 
significant hardship for families. No family should have to cope with a 
wage earner losing a job because they needed a day off to care for a 
sick child or family member.
    The unemployed are finding it increasingly difficult to get back to 
work. The typical unemployed worker has been out of work and searching 
for a job for 10.3 weeks, and nearly one in four (22.4 percent) 
unemployed workers have been out of a job for at least six months. The 
problem is that there are many more job seekers than jobs to be had. 
There were 2.7 million job openings on the last business day of 
December (the latest data on job openings), but there were 11.1 million 
unemployed workers. In January, 6.0 million workers entered or 
reentered the labor market, but less than two out of three (60.7 
percent) actually found a job that month.
    Establishing job-protected family and medical leave for more 
workers would help to ensure that no worker is pushed into the masses 
of the unemployed simply because they needed to care for a sick child 
or needed time to recover from an illness. Currently, the Family and 
Medical Leave Act only covers half the labor force because it excludes 
workers in firms with fewer than 50 employees; bringing this down to 
smaller employers would limit the unemployment of workers with 
caregiving responsibilities.
    Ensuring that part-time workers have access to health care and fair 
pay has become more important to families. Many employers have cut 
hours instead of laying off workers. The share of workers who work 
part-time hours due to slack work or business conditions is now at its 
highest since the 1950s. Overall, 7.8 million workers are employed 
part-time, even though they would like a full-time job.
    Employers are reporting that they are asking workers to take 
shorter hours to avoid lay-offs. Weekly hours worked are at a 
historically low level, even as employers shed workers. The average 
number of hours worked held steady last month at 33.3 per week. This is 
fewer hours per week than at any other time since the Bureau of Labor 
Statistics began tracking the data in 1964. Yet shorter hours or part-
time work means that millions will be left without basic benefits such 
as health insurance coverage and paid time off unless employers alter 
their usual practice of not providing benefits to part-time workers.
    The increase in part-time workers--especially involuntary part-time 
work--underscores how important it is to ensure that part-time workers 
are included in our plans to expand health care coverage. With more 
families being supported by a female worker who may not work full-time, 
access to health care benefits will become even more critical for 
working families.
    Families are facing a tough economy. For many, the challenges of 
balancing work and family have only grown: with jobs scarce, workers 
are in greater need of family-friendly policies, especially those that 
ensure job protection. These policies can help to stimulate the economy 
in the short-term.
                               references
Blau, F. D. and L. M. Kahn 2007. ``The Gender Pay Gap: Have Women Gone 
        as Far as They Can?'' Academy of Management Perspectives.
Boushey, Heather. 2009. ``Equal Pay for Breadwinners.'' Washington, DC: 
        Center for American Progress.
Romer, C. and J. Bernstein 2009. ``The Job Impact of the American 
        Recovery and Reinvestment Plan.'' Washington, DC: Council of 
        Economic Advisors.
Williams, J. 2007. ``Perspectives on Work/Family Balance and the 
        Federal Equal Employment Opportunity Laws.'' Washington, DC: 
        Equal Employment Opportunity Commission.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Ms. Bernard?

 STATEMENT OF MICHELLE BERNARD, PRESIDENT AND CEO, INDEPENDENT 
                         WOMEN'S FORUM

    Ms. Bernard. Chairman Woolsey, Ranking Member Price and 
other distinguished members, I sincerely thank you for giving 
me the opportunity to testify before you today on this very 
important topic.
    My name is Michelle Bernard, and I am president of the 
Independent Women's Forum. IWF is a nonprofit group that is 
dedicated to educating the public about the issues of greatest 
concern to women, men and families.
    We believe that free markets and economic liberty are 
fundamental to women's' prosperity and well-being. IWF believes 
that encouraging a dynamic, diverse job market is one of the 
most important policy issues facing American women today.
    Yet, my testimony today will not just reflect the 
perspective and analysis of the Independent Women's Forum. It 
is also based on my own personal experience.
    I am the mother of two young children. I have taken time 
out of the workforce after a child's birth. I have sought at-
home part-time employment and flexible work schedules in order 
to balance my desire to spend hands-on time with my children 
and to pursue my career.
    I am also an employer. IWF is a small group with a total of 
11 full-time staffers. Currently, everyone who works for me 
happens to be a woman. Many of my employees have children. In 
fact, six of my 11 employees have children. I have two 
employees on maternity leave, and another is scheduled to 
deliver her son any day. I know from an employer's perspective 
both the benefits and challenges of working with employees to 
create arrangements that work for the good of the organization 
as well as for the personal needs of the employee.
    Like most employers, I recognize the benefits of finding 
mutually beneficial work arrangements. While many focus on what 
employers aren't doing for their workers, it is also important 
to recognize that most businesses, large and small, already 
provide their employees with more benefits and flexibility than 
what is required by federal law.
    For example, the Department of Labor reports that, as of 
2006, 82 percent of American workers in the private sector had 
access to some sort of paid leave. As of 2004, 27 percent of 
full-time and salaried workers worked in arrangements that 
allowed them to vary their work start and end times. These 
statistics are encouraging, but we all know that they still 
mean that there are millions of workers without paid leave or 
certainly sufficient paid leave, and many who crave for more 
flexibility.
    Those who propose new laws and regulations to require 
businesses to provide specific leave, benefits, or more 
flexible work arrangements do so because of their concerns for 
these individuals. I share that concern, but I am also 
concerned about the unintended consequences of government 
mandates for the employer-employee relationship.
    Consider the situation of leave with benefits. If employers 
are required to increase the amount of leave time we offer 
employees, our costs are going to go up. It will become more 
expensive to retain our higher workers. As a result, businesses 
will have an incentive to hire fewer workers or to outsource 
jobs.
    This isn't just economic theory. This is a fact. I can show 
you this on my own balance sheet. If the cost of benefits go 
up, that means that there will be less for workers. That means 
that, in tough economic times like this, I may face the grim 
prospect of actually having to let someone go or cutting 
salaries.
    On a macro level, raising the cost of employment means a 
loss of job opportunities in the United States, particularly 
for employees whose jobs responsibilities can be fulfilled from 
alternative locations. I am a big believer in family-friendly 
workplaces, but government mandates are the wrong way to get us 
there.
    The best way is to encourage a thriving economy that offers 
workers numerous job opportunities so that we can negotiate 
arrangements that make sense for our unique situation. 
Government can help women by encouraging more job creation and 
making it easier for women to start businesses of their own.
    Start by simplifying our tax code, which is a drag on 
everyone's time, but particularly on those who run small 
businesses. Lower taxes, particularly taxes directly related to 
job creation, and reduce regulations that drive up costs and 
make doing business more complicated and expensive.
    End the counter-productive taxes that discouraging savings 
so that people are better able to provide for themselves in 
times of need. Remember that, for every story you hear about 
someone who would benefit from a law mandating employer-
provided benefits, there is another story about someone looking 
for a job whose prospects of finding work are reduced because 
of the high cost of unemployment.
    Particularly in economic times like these, new government 
mandates that raise the cost of employment are moving in the 
wrong direction. Policymakers should focus on job creation, not 
dictating the content of employment contracts. A thriving job 
market is the real key to providing women with the work 
opportunities that we crave.
    Thank you again for your time, and I look forward to your 
questions.
    [The statement of Ms. Bernard follows:]

   Prepared Statement of Michelle D. Bernard, President, Independent 
                             Women's Forum

    Chairman Woolsey, Ranking Member Price, and other distinguished 
Members, I sincerely thank you for giving me the opportunity to testify 
before you today on this important topic.
    My name is Michelle D. Bernard and I am the president of the 
Independent Women's Forum. We are a nonprofit group that is dedicated 
to educating the public about the issues of greatest concern to women, 
and believe that free markets and economic liberty are fundamental to 
women's prosperity and well being. IWF believes that encouraging a 
dynamic, diverse job market is one of the most important policy issues 
facing American women today. Yet my testimony today will not just 
reflect the perspective and analysis of the Independent Women's Forum. 
It is also based on my personal experience. I am the mother of two 
young children. I have taken time out of the workforce after a child's 
birth. I have sought at home, part-time employment and flexible work 
schedules in order to balance my desire to spend hands-on time with my 
children and still pursue my career.
    I am also an employer. IWF is a small organization, with a total of 
11 full-time staff members. Currently, everyone who works for me 
happens to be a woman. Six of my eleven employees have children. I have 
two employees on maternity leave and another a few weeks away from 
giving birth. I know from an employer's perspective both the benefits 
and challenges of working with employees to create arrangements that 
work for the good of the organization as well as for the personal needs 
of the employee. Like most employers, I recognize the benefits of 
finding mutually beneficial work arrangements. While many focus on what 
employers aren't doing for their workers, it's also important to 
recognize that most businesses, large and small, already provide their 
employees with more benefits and flexibility than is required by 
federal law. For example a study conducted by the Families and Work 
Institute\1\ found that:
---------------------------------------------------------------------------
    \1\ 1Ellen Galinsky, ``National Study of Employers 1998-2005,'' 
Families and Work Institute, February 16, 2006.
---------------------------------------------------------------------------
    <bullet> 70 percent of employers allowed at least some employees to 
periodically change start and quitting times;
    <bullet> 31 percent allowed at least some employees to change 
starting and quitting times daily;
    <bullet> More than half (55 percent) allowed at least some 
employees to move from full-time to part-time work, then back in the 
same position;
    <bullet> 44 percent allowed at least some employees to share jobs;
    <bullet> 44 percent also allowed employees to compress their work 
week;
    <bullet> More than one third (35 percent) allowed at least some 
employees to work at home or off-site on a regular basis;
    <bullet> 85 percent employers allowed at least some employees to 
return to work gradually after childbirth;
    <bullet> 86 percent of employers provided women with 12 weeks or 
more of job-guaranteed leave after the birth of a child; and,
    <bullet> More than half (54%) reported that their female employees 
received some pay from any source during the period following giving 
birth.
    The U.S. Department of Labor reports that, as of 2006, 82 percent 
of American workers in the private sector had access to some sort of 
paid leave, whether paid sick leave, vacation, or personal leave. Not 
surprisingly, full-time workers were much more likely to have access 
specifically to paid sick leave than part-time workers (nearly 70 
percent of full-time workers had paid sick leave, compared with 20 
percent of part-time workers).\2\ As of 2000, 4 million Americans were 
telecommuting on most days and 20 million were telecommuting at least 
one a month.\3\ The Department of Labor also found that, as of 2004, 27 
percent of full-time and salaried workers worked in arrangements that 
allowed them to vary their work start and end times.\4\
---------------------------------------------------------------------------
    \2\ U.S. Department of Labor Fact Sheet on ``Leave Coverage and 
Usage for U.S. Workers,'' February 27, 2007, 2.
    \3\ U.S Census Bureau, ``Census 2000 PHC-T-35. Working at Home: 
2000,'' Table 1-4, available at http://www.census.gov/population/
cen2000/phc-t35/tab01-4.xls.
    \4\ Bureau of Labor Statistics Press Release, ``Workers on Flexible 
and Shift Schedules in 2004 Summary,'' July 1, 2005.
---------------------------------------------------------------------------
    These statistics are encouraging, but we all know that they still 
mean that there are millions of workers without paid leave, or 
certainly sufficient paid leave, and many who crave more flexibility. I 
know that there are heartbreaking anecdotes of people who face 
illnesses, either personally or among their families, and who then must 
struggle to meet the demands of their job. I know too many women have 
too little time, and too little support, after giving birth. Those who 
propose new laws and regulations to require businesses to provide 
specific leave benefits or more flexible work arrangements do so 
because of their concerns for these individuals. I share that concern, 
but I am also concerned about the unintended consequences of government 
mandates for the employer-employee relationship. We cannot ignore that 
there are real costs associated with many of these provisions, such as 
requiring employers to provide a specific amount of leave time (paid or 
unpaid) or requiring the availability of more flexible work schedules. 
These provisions have real effects on a company or organizations' 
bottom line.
    Consider the situation with leave benefits. Simply put, when 
employees take time out of the work force, businesses must replace 
those workers or shift their responsibilities to other employees, 
resulting in lost productivity. If employers are required to increase 
the amount of leave time we offer employees, our costs are going to go 
up. It will become more expensive to retain or hire workers. As a 
result, businesses will have an incentive to hire fewer workers or to 
outsource jobs. As of 2006, more than 30 percent of the average 
worker's total compensation was paid as benefits. If mandates drive 
costs up, that means there will be less money available to pay workers 
directly as compensation.
    This isn't just economic theory, this is a fact. I can show you on 
my own balance sheet. As a non-profit organization, I don't have the 
option of passing new costs on to customers. We are funded through 
private donations. As a result, I have a set pool of money that can be 
used for compensation. If the costs of benefits go up, that means that 
there will be less for raises and for workers. That means that in tough 
economic times like these I may be forced to scale back. I may face the 
grim prospect of actually having to let someone go or reducing peoples' 
take-home pay. These are the difficult calculations being made at 
organizations and companies throughout the country, large and small. On 
a macro level, raising the cost of employment means a loss of job 
opportunities in the United States, particularly for employees whose 
job responsibilities can be fulfilled from alternative locations.
    Indeed, low-income workers who tend to have the lowest skills are 
the most likely to be affected adversely by costly new mandates. 
Employers seeking to remain competitive and reduce their employment 
costs will seek ways to combine jobs. Low skill jobs are typically the 
easiest to combine. Those with the highest level of skills will be 
retained by employers, but those who most need those important skill-
building, entry-level jobs will likely be left with fewer options and 
opportunities.
    Sometimes the costs of proposals aren't obvious. Providing for more 
flexible schedules, for example, or work-at-home arrangements sound 
like a win-win for employers and employees. And I firmly believe that 
it certainly can be. But such arrangements can work well in particular 
situations, but wouldn't work so well for others. One of my employees, 
whose primary job is researching and writing, works almost entirely 
from home. This works for us: she has flexibility, but can easily be 
held accountable for her performance based on her output. Yet there are 
other positions where being physically in the office is a necessity.
    Right now, I have the flexibility as an employer to negotiate 
flexible arrangements. Employees know that it is a responsibility. Once 
such flexibility becomes a right, I will have a lot less control of 
managing my employees' performance. It will become more difficult for 
me to reward positive performance and take action against those who 
aren't working as they should. It would open employers like me up to a 
new raft of lawsuits and administrative tasks, all of which are a real 
burden on business. I've focused thus far on the economic impact of 
government mandates, but I also want to highlight that at its core 
mandates are a loss of freedom for individuals. A law requiring 
employers to offer seven days of paid sick leave, for example, means 
that it has become illegal for two adults to create an employment 
contract without that provision. Why is this government's job? Isn't 
this a decision best left to individuals?
    It is important to remember that, while some employees may want 
generous benefit packages, others may prefer more money in their 
wallets. Conversations about mandated benefits tend to focus on those 
who make the most use of those benefits, particularly women with 
children. Yet we can't forget that there are many workers without 
significant family obligations. They are much less likely to make use 
of these benefits and are more likely to have to pick up the slack when 
other workers do make use of them. Why should they not be able to 
negotiate a reduced benefit package that allows them to have more money 
in their pockets? I'm a big believer in family-friendly workplaces. But 
government mandates are the wrong way to get us there. The best way is 
to encourage a thriving economy that offers workers numerous job 
opportunities so that we can negotiate arrangements that make sense for 
our unique situations. Government can help women by encouraging more 
job creation and making it easier for women to start businesses of 
their own. Start by simplifying our tax code, which is a drag on 
everyone's time, but particularly on those who run small businesses. 
Lower taxes, particularly taxes directly related to job creation. 
Reduce regulations that drive up costs and make doing business more 
complicated and expensive. End the counterproductive taxes that 
discourage savings so that people are better able to provide for 
themselves in times of need. Remember that for every story you hear 
about someone who would benefit from a law mandating employer-provided 
benefits, there's another story about someone looking for a job whose 
prospects of finding work are reduced because of the high cost of 
employment. Particularly in economic times like these, new government 
mandates that raise the cost of employment are the wrong direction. 
Policymakers need to focus on job creation, not dictating the content 
of employment contracts. A thriving job market is the real key to 
providing women with the work opportunities that we crave. Thank you 
again for your time and I look forward to your questions.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Dr. Appelbaum?

 STATEMENT OF EILEEN APPELBAUM, DIRECTOR, CENTER FOR WOMEN AND 
                    WORK, RUTGERS UNIVERSITY

    Ms. Appelbaum. Thank you, Chairman Woolsey and Mr. Price, 
for inviting me to speak here today, and thank you, Congressman 
Holt, for that kind introduction.
    These are challenging times for America, for our families, 
our workers, and our businesses. The double blow of a serious 
recession and a crisis in financial markets has undermined the 
profitability of American companies and threatened the incomes 
of America's working families.
    Our values and character as a nation will be revealed in 
how we meet these challenges.
    Today, with the economy struggling to gain traction, 
policies like paid sick days and family leave insurance are 
more important than ever. Especially during a recession, losing 
a job can be catastrophic.
    Paid sick days and family leave insurance are effective job 
retention strategies that help workers and, at the same time, 
enable businesses to realize net savings where the lower cost 
of reduced turnover and presenteeism, which is coming to work 
sick, are balanced against the costs of absenteeism.
    Most families, as you have heard, face a situation in which 
just about every available adult is in the paid workforce. Paid 
sick days, the family leave insurance, let everyone who works 
for pay be good family members and good employees. Research 
shows, and families know, that the lack of paid time off to 
care for yourself, your children or other family members 
compromises health outcomes.
    The American people get it. Polling data show that the 
public overwhelmingly supports both paid sick days and family 
leave insurance. A recent national poll found that 89 percent 
of voters, 83 percent of Republicans and 94 percent of 
Democrats, favor paid sick days as a basic employment standard.
    A poll of New Jersey residents prior to passage of the 
state Family Leave Insurance Program, found that 78 percent of 
all residents, including a majority of Republicans, favored 
that policy. While the benefits of families and to public 
health may be familiar to many people, the benefits to 
businesses are less well known.
    Access to paid sick days and to family leave insurance 
increases employee productivity and reduces turnover. Turnover 
is very costly for employers, and access to paid time to care 
for yourself or a family member significantly improves 
retention and reduces these costs.
    An analysis of the 2003 survey of California establishments 
found that relatively few employees go on leave at any time. On 
average, 6.3 percent of workers took family or medical leave in 
a 1-year period, 8 percent in those companies that had more 
generous benefits than were required by law.
    However, what we also found is that 88 percent of workers 
returned to their previous employer if there were more generous 
leave benefits. And in particular, small businesses with more 
generous leave benefits found that 95.4 percent of leave-takers 
returned to their jobs.
    A cost-benefit analysis in California showed very high 
savings for both employers and for state government when people 
don't go on welfare or TANF or food stamps, so both employers 
and the state benefited. In Massachusetts, a cost-benefit 
analysis found that, while it is true that employers would pay 
$218 million annually as a group as a result of paid sick days, 
the benefits mainly from reduction in turnover but also from 
preventing the rest of the staff from getting sick and so on, 
led to a savings of $348 million annually. The weekly per-
worker cost of paid sick days would be $1.49 while savings per 
worker would be $2.38 for a net savings to employers of 89 
cents per employee per week. And this includes benefits that 
would have to be paid.
    Employers are often concerned that providing employees with 
paid sick days or family leave insurance will lead to 
skyrocketing employee absences. The data suggests that this 
fear is unfounded.
    Now, while it is true that many businesses offer their 
employees paid sick days, what we know is that these benefits 
apply mainly to full-time workers and mainly to the higher paid 
workforce. Seventy-one percent of full-time workers have paid 
sick days, only 27 percent of part-time workers, and access is 
very uneven, with those making $15 an hour or less very 
unlikely to have access to paid sick days.
    If we turn to family leave insurance, we see that 
California and New Jersey are the first states to implement, 
that Washington State has passed it but has not yet 
implemented. In both of these states, the benefit is the 
insurance premiums are fully paid by the employees. They pay 
into a state insurance fund.
    When they require a family leave, they are able to take the 
time off. I think it is unreasonable--I am sure there are some 
good employers who do provide extensive family leave benefits, 
but it is unreasonable to ask employers to be able to do that. 
A state insurance fund is the way to go. And in the two states, 
there are no new mandates on employers, only that, if your kid 
gets hit by a car, your mother has a stroke, you need to take a 
few weeks off, you can collect.
    And the question--I see I am out of time, so, in the 
question and answer, I am happy to talk a little bit about how 
we can look at family leave insurers, and especially paid sick 
days, in the current environment. I have some ideas of how to 
help employers.
    I will just conclude by saying that difficult economic 
times like the present are the worst times for people to lose a 
job. And in addition, employers won't hire somebody to replace 
that person. Family leave insurance and paid sick days enable 
workers to maintain a stable stream of income and underpins 
consumption when workers must miss work.
    Thank you very much.
    [The statement of Ms. Appelbaum follows:]

Prepared Statement of Eileen Appelbaum, Professor, School of Management 
   and Labor Relations, Director, Center for Women and Work, Rutgers 
                               University

    Thank you Chairwoman Woolsey and Chairman Miller for inviting me to 
speak to you today. My name is Eileen Appelbaum and I am a professor in 
the School of Management and Labor Relations and Director of the Center 
for Women and Work at Rutgers University, and a Visiting Scholar at the 
Center for Economic and Policy Research.
    These are challenging times for America--for our families, our 
workers, and our businesses. The double blow of a serious economic 
recession and a crisis in financial markets--unprecedented in the more 
than 60 years since the Second World War--has undermined the 
profitability of American companies and threatened the incomes of 
America's working families. Our values and our character as a nation 
will be revealed in how we meet these challenges. President Obama made 
clear in his remarks to the joint session of Congress last week that he 
is looking to all of us to work with him to take the bold steps 
necessary to build a sustainable economy to replace the now-deflated 
and thoroughly discredited stock and housing bubble economies. He has 
created a high-level White House Task Force on Middle-Class Working 
Families and charged it to act swiftly to develop legislative and 
policy proposals that can be of special importance to working families. 
Key among the 5 goals the President set for the task force is to 
improve work and family balance.
    Today, with the economy struggling to gain traction, policies like 
paid sick days and family leave insurance are more important than ever. 
Especially during a recession, losing a job can be catastrophic for 
employees and their families and will place added demands on already 
strained state services. Paid sick days and family leave insurance 
reduce job loss. They are effective job retention strategies that help 
workers behave responsibly as employees and as family members and, at 
the same time, enable businesses to realize net savings when the lower 
costs of reduced turnover and presenteeism (coming to work sick) are 
balanced against the costs of absenteeism. Paid sick days policies and 
family leave insurance enable ill workers to take time off from work to 
care for themselves, reduce the spread of disease to co-workers and 
customers, and offer substantial savings to employers by reducing 
turnover and minimizing absenteeism.
    Let me briefly describe what is meant by the terms ``paid sick 
days'' and ``family leave insurance,'' and clarify the difference 
between them.
    Paid Sick Days: Employees accrue a certain number of paid sick days 
during a calendar year that they can use to recover from the flu or 
other routine illnesses or medical problems. For many employees, having 
paid sick days enables them to care for a child with a routine illness
    Family Leave Insurance (FLI): Employees in a state pay a modest 
amount into a state insurance fund. These employees are then able to 
draw on the fund for partial wage replacement when they need time off 
from work to care for new or seriously ill family members or to recover 
from their own serious illnesses. Employers gain from job stability.
Family-friendly policies at work
    Most families face a situation in which every available adult is in 
the paid workforce. Family members must provide needed care for 
children, spouses and ill or elderly parents while being responsible 
employees at work and contributing to the financial well-being of the 
household. Employees need family-friendly policies at work to be able 
to do this. Paid sick days and family leave insurance let everyone who 
works for pay to be good family members and good employees. Research 
shows, and families know, that the lack of access to paid time off to 
care for yourself, your children, or other family members compromises 
health outcomes. Having to come to work sick or send a sick child to 
school increases contagion and spreads disease in the workplace, child 
care center, or school (Heymann, Earle and Egleston 1996). Not taking 
time off to get better can actually result in longer absences for 
employees since health may worsen and minor problems turn into major 
ones (Grinyer and Singleton 2000). Children recover from illness or 
surgery more quickly when their parents are there to care for them 
(Palmer 1993; Krisstensen-Hallstrom, Elanders and Malmfors 1997). The 
elderly recover more quickly and can live on their own longer if 
children are able to care for them when they fall ill.
    The American people ``get'' it. Polling data show that the public 
overwhelming supports both paid sick days and family leave insurance. A 
recent national poll found that 89 percent of voters--83 percent of 
Republicans and 94 percent of Democrats--favor paid sick days as a 
basic employment standard (National Partnership for Women and Families 
2007). It is easy to understand this high level of support across the 
political spectrum. In addition to the loss of wages when an employee 
misses work, unapproved absences may also be punished with temporary 
unpaid suspensions or even with job loss (Dodson, Manuel, and Bravo 
2002). In the poll mentioned above, 1 in 8 voters reported that they or 
a worker in their family had been fired or penalized for taking time 
off from work to care for a sick family member. A poll of New Jersey 
residents in Fall 2006, prior to passage of the state's FLI program, 
found that 78 percent of all residents, including a clear majority (59 
percent) of Republicans, favored the policy. About three-quarters of 
residents favored the policy even at a cost to themselves that was 
double what the program actually cost (Eagleton Institute 2006). Polls 
conducted in California and in Washington State prior to passage of 
family leave insurance in those states found similar high levels of 
support across the income and political spectrums. Activity at the 
state and local level is at its highest, involving broad and diverse 
coalitions including school nurses and educators, labor and progressive 
business owners, advocates for children and for seniors.
    While the benefits to families and to public health from paid time 
off to care for yourself or a family member may be familiar to many 
people, the benefits to businesses are less well known. Access to paid 
sick days and to family leave insurance increases employee productivity 
and reduces turnover. Turnover is costly for employers, and access to 
paid time off to care for yourself or a family member significantly 
improves retention and reduces these costs. In addition, letting 
employees stay home and recuperate reduces the costs to businesses of 
illnesses that spread among the workforce when employees come to work 
sick. The cost savings are considerable and far outweigh any additional 
expenses associated with these workplace policies. Indeed, many 
businesses recognize the value of these cost savings, and already 
provide employees with paid sick days and other paid leave benefits.
    An analysis of the 2003 Survey of California Establishments, a 
survey of California employers conducted prior to the implementation of 
family leave insurance (called paid family leave or PFL in that state) 
found that over a third of these employers (35.5%) provided family and 
medical leave benefits beyond what was then required by law. This was 
especially true in unionized workplaces. The survey of employers also 
found that relatively few employees go on leave at any time. On 
average, 6.3% of workers took family or medical leave in a one-year 
period; 8.0% in establishments with more generous leave benefits. 
However, the survey indicated that leave takers were more likely to 
return to their jobs in establishments with more generous leave 
benefits--87.7% compared with only 75.8% in establishments that did not 
provide benefits beyond those required by law. Small businesses with 
more extensive leave benefits did even better--95.4% of leave takers 
returned to their jobs (Milkman and Appelbaum 2004).
    A cost-benefit study of paid family leave in California found that 
providing all employees with partial wage replacement for up to 6 weeks 
of family leave through a state insurance fund would result in 
significant savings for both employers and for the state. Employers 
would realize a net saving of $89 billion a year due to increased 
retention and decreased turnover. In addition, the State of California 
could save $25 million annually, due to decreased reliance on 
assistance programs, including TANF and Food Stamps (Dube and Kaplan 
2002).
    In Massachusetts, 693,000 workers--a quarter of the private sector 
workforce--have no paid leave whatsoever and would receive new paid 
sick days if legislation introduced in that state were passed. A cost-
benefit analysis of this proposed legislation found that Massachusetts 
employers would pay $218 million annually for wages, payroll taxes and 
payroll-based employment benefits, and administrative costs to provide 
employees with paid sick days. However benefits for employers, mainly 
from reduced costs of turnover, would amount to $348 million annually. 
Overall, employers in the state would save $130 million annually as a 
result of the paid sick days legislation. The weekly per worker cost of 
the Massachusetts paid sick days policy would be $1.49 while savings 
per work would be $2.38, for a net savings to employers of $0.89. In 
addition, the paid sick days policy would improve public health by 
reducing the spread of serious contagious diseases such as the flu and 
norovirus, and would save workers $1.5 million annually in health care 
expenditures. Getting medical care when it is needed would improve 
patient outcomes and reduce costs for providers and patients (Lovell, 
Miller and Williams 2009).
    Employers are often concerned that providing employees with paid 
sick days or family leave insurance will lead to skyrocketing employee 
absences. The data suggest that this fear is unfounded. National data 
show that employed adults 18 years of age and older lost, on average, 4 
work days due to illness or injury in the 12 months preceding the data 
collection (National Center for Health Statistics 2007). Employees with 
paid sick days at their workplace had an average of 4.6 days of work 
loss due to illness; those with no paid sick days at work had an 
average of 3.8 lost work days due to illness. Fully 48 percent of 
employees with paid sick days at work used none of their sick days in 
the prior 12 months (CEPR analysis of the 2007 National Health 
Interview Survey).\1\
---------------------------------------------------------------------------
    \1\ The analysis is based on the methodology developed by Vicky 
Lovell and the Institute for Women's Policy Research (Lovell 2004).
---------------------------------------------------------------------------
    Similarly, usage of family leave insurance in California--the only 
state with actual experience with such leaves--is reassuring. While 
family and medical leaves are essential supports to employees welcoming 
a new child or facing the challenges of caring for a seriously ill 
child or parent, these are relatively rare events in a worker's life. 
Several hundred thousand California working families have benefitted 
from access to this insurance in the four-and-a-half years since it was 
implemented in July 2004. But this represents a relatively small 
fraction of the California workforce.
Who gets paid sick days
    Many businesses already offer their employees paid sick days. 
According to the latest data (National Compensation Survey, March 
2008),\2\ 61 percent of private sector workers--71 percent of full-time 
and 27 percent of part-time workers--had access to paid sick days. This 
means that two fifths of all private sector workers and nearly three-
quarters of part-time employees--had no paid sick days at all (Kramer 
and Zilberman 2008). A serious problem is that more than half of the 
workforce does not have or cannot use paid sick days to care for sick 
children (Galinsky, Bond and Hill 2004). Moreover, access to paid sick 
days is uneven--higher-paid workers are far more likely than lower-paid 
workers to be able to take paid time off when they have a bad cold or 
the flu. In 2008, only 23 percent of employees in the bottom 10 percent 
of the income distribution had any paid sick days, compared with 83 
percent of employees in the top 10 percent. For these low wage workers, 
any illness--even a sore throat and fever--can be a health crisis. Only 
47 percent of workers earning less than $15 an hour have any paid sick 
days, while 75 percent of those earning $15 or more have such access. 
By occupation, 83 percent of managers and professionals but only 66 
percent of sales and service workers, 51 percent of production workers, 
and 42 percent of service workers have access to paid sick days (Kramer 
and Zilberman 2008). As a result, children in low-income families are 
far less likely than other children to have a parent with paid sick 
days (Clemens-Cope et al. 2008; Earle and Heymann 2002).
---------------------------------------------------------------------------
    \2\ A new definition of paid sick days access was introduced in the 
March 2008 survey. It now includes previously excluded plans for which 
no worker had made use of the benefit. As a result, the latest numbers 
for access to paid sick days are higher than, and not strictly 
comparable to, earlier numbers from this source that have been widely 
used in previous publications.
---------------------------------------------------------------------------
Family leave insurance in California and New Jersey
    In 2004 California became the first state in the nation to 
implement family leave insurance. Employees began contributing to this 
fund in January of 2004 and, once the fund was established, were able 
to collect benefits beginning in July of that year. California 
employees who need to take family leave to bond with a new child or to 
care for a seriously ill child, parent, spouse or domestic partner are 
able to collect partial wage replacement from a state-administered 
insurance fund that is fully funded by employee contributions. 
Employees are able to collect 55% of their weekly earnings up to a 
maximum that rises each year along with the average wage paid in the 
state. The maximum benefit was $728 in 2004 rising to $882 in 2007 and 
$917 in 2008. The average weekly benefit actually paid out was $406 in 
2004, $405 in 2007 and $421 in 2008. While income replacement under the 
paid family leave program has been very important to the well-being of 
families that have received it--and a total of about 740,000 claims 
have been paid, only a very small fraction of employees has taken paid 
family leave in any year. The percentage that has taken paid family 
leave in each year of the program's existence has been between 1.2% and 
1.4% of eligible employees.
    A large majority of the claims (88%) are for bonding with a new 
child. While women still do the majority of care work in the home, by 
2008 a fifth of all bonding leaves were taken by men. The remaining 
claims (12% of the total) are for care of a seriously ill family 
member, most often a spouse or parent; more than a third of these 
leaves were taken by men as has been the case since 2004. The average 
length of leave has been about 5.4 weeks each year, reflecting the fact 
that most of these leaves are for bonding. Leaves to care for a 
seriously ill family member are substantially shorter. (All California 
data are from the Employment Development Department of the State of 
California.)
    In 2008 New Jersey became the second state to pass family leave 
insurance and put a mechanism in place to fund it (the third state 
after Washington to pass such a program). Like the California family 
leave insurance program, it is fully worker funded and provides up to 6 
weeks of partial wage replacement. Employees began contributing to this 
insurance fund on January 1, 2009 and will be able to begin collecting 
from it on July 1 of this year. Employees will be able to collect two-
thirds of their weekly wage up to a maximum in 2009 of $548. This 
formula is a bit more generous to low-wage employees than the 
California program, but it is capped at a much lower level. The cost of 
this benefit is 25 cents a week ($13 a year) for a worker earning $7.25 
an hour and is capped in 2009 for all employees at $26.01 a year or 50 
cents a week.
Federal measures to promote family-friendly policies in the workplace
    Family-friendly policies take many forms. Some, like minimum wage 
and paid sick days, establish employment standards and can reasonably 
be expected to be provided by employers. Others, like unemployment 
insurance and family leave insurance, are paid for through a payroll 
deduction to cover the premium.
    Family leave insurance is still in its infancy in the U.S. For 
California and New Jersey, which have long-standing state temporary 
disability insurance funds, adding family leave insurance to temporary 
disability insurance made a lot of sense. Washington State, which 
needed to create the program from scratch, took another route of 
charging a fixed amount per hour and paying out a fixed weekly benefit. 
As other states begin to implement a state insurance fund to provide 
income to families when a wage earner must miss work for a family or 
medical leave, we are likely to see--and will want to encourage--a wide 
diversity of approaches. This will be important for providing us with 
important information about the best way to make this insurance 
universally available. An important role for the federal government is 
to provide states with incentives and support to develop their own 
family leave insurance initiatives. The federal government can do this 
by providing grants to states to implement programs that provide 
partial or full wage replacement to those taking the types of leaves 
defined by the Family and Medical Leave Act. The grants might be used 
to develop and implement the program, to cover administrative costs, 
for outreach and education, or to provide incentives to small 
businesses to provide job protection. In particular, the grants might 
be used to enable states to begin paying benefits during the initial 6-
month period between the time employees begin paying into the fund and 
the time the fund has built up sufficient assets to begin accepting 
claims for payment. In order to not penalize states that have already 
implemented such a program, a similar one-time grant could be made to 
them as well.
    Paid sick days should be a universal employment standard in the 
U.S. It is in no one's best interest to have employees come to work 
when they have a bad cold or the flu. And, indeed, a majority of 
employers do provide their workers with paid sick days. It can, 
however, be difficult to implement paid sick days if the companies with 
which you compete do not do likewise. Requiring employers to provide 
workers with a minimum of seven job protected paid sick days, levels 
the playing field for good employers who want to meet this standard. 
Employees would accrue the paid sick days at a rate of one hour of paid 
sick time for every X hours of time worked up to 7 or more days As with 
the minimum wage, national legislation could provide a universal floor 
for all workers, with states free to set higher standards. In the 
absence of national legislation requiring paid sick days as a workplace 
standard, some states and localities have begun to introduce local 
ordinances. Measures have passed in San Francisco, Milwaukee and DC; 
the San Francisco and Milwaukee ordinances require 9 paid sick days.
    Paid sick days are even more important now, in the midst of the 
current severe recession and accelerating job loss. Without access to 
this basic standard, workers lose income and may even lose their jobs 
if they miss work to care for their own health or that of a child. For 
the employee, this would be a terrible time to lose a job. And 
employers are not likely to hire a replacement, with negative impacts 
on the local community and the macroeconomy. Yet, the business 
community's lack of confidence during the current recession could make 
companies fearful of making changes or adopting new policies, however 
beneficial. This is especially true of smaller employers. And it is 
employees of smaller companies, especially those who are low-paid, that 
are most likely to lack paid sick days. Only about half of companies 
with less than 100 employees offer any paid sick days compared with 
nearly three-quarters of companies with 100 or more employees (Kramer 
and Zilberman 2008).
    One way to address this is to provide a temporary subsidy, say for 
two years, to small employers that introduce and/or increase the number 
of days of job protected sick days. The full subsidy would be available 
to all employers with less than 50 employers and would phase out as the 
number of employees increased, up to 100 employees. The subsidy would 
be capped at 3% of annual pay not to exceed a $750 credit per worker.
Conclusion
    Difficult economic times like the present are the worst times for 
people to lose a job. Family leave insurance and paid sick days enable 
workers to maintain a stable stream of income and underpins consumption 
when workers must miss work to deal with their own health needs or 
those of a family member. These measures are important during the 
current recession. They are also essential to building a sustainable 
economy for the long run that works for working families.
                               references
Clemans-Cope, Lisa, Cynthia D. Perry, Genevieve M. Kenney, Jennifer E. 
        Pelletier, and Matthew S. Pantell. 2008. ``Access to and Use of 
        Paid Sick Leave among Low-Income Families with Children.'' 
        Pediatrics 122:480--86.
Dube, Arindrajitm and Ethan Kaplan. 2002. ``Paid Family Leave in 
        California: An Analysis of Costs and Benefits.'' Berkeley, CA: 
        Institute on Labor and the Economy, University of California--
        Berkeley.
Dodson, Lisa, Tiffany Manuel, and Ellen Bravo. 2002. Keeping Jobs and 
        Raising Families in Low-IncomeAmerica: It Just Doesn't Work. 
        Cambridge, MA: Radcliffe Institute for Advanced Study.
Eagleton Institute of Politics, Eagleton Center for Public Interest 
        Polling. 2006. ``Summary of Poll Results for Family Leave 
        Insurance.'' New Brunswick, NJ (November 9)
Earle, Alison, and Jody Heymann. 2002. ``What Causes Job Loss among 
        Former Welfare Recipients: The Role of Family Health 
        Problems.'' Journal of the American Medical Women's Association 
        57 (Winter): 5--10.
Galinsky, Ellen, James T. Bond, and E. Jeffrey Hill. 2004. A Status 
        Report on Workplace Flexibility: Who Has It? Who Wants It? What 
        Difference Does It Make? New York: Families and Work Institute.
Grinyer, Anne, and Vicky Singleton. 2000. ``Sickness Absence as Risk-
        Taking Behavior: A Study of Organizational and Cultural Factors 
        in the Public Sector.'' Health, Risk and Society 2 (March): 7-
        21.
Heymann, S. Jody, Alison Earle, and Brian Egleston. 1996. ``Parental 
        Availability for the Care of Sick Children.'' Pediatrics 98 
        (August): 226-230.
Kramer, Natalie, and Alan Zilberman. 2008. ``New Definitions of 
        Employee Access to Paid Sick Leave and Retirement Benefits in 
        the National Compensation Survey.'' U.S. Department of Labor, 
        Bureau of Labor Statistics. www.bls.gov/opub/cwc/
        cm20081219ar01p1.htm
Kristensson-Hallstrom, Inger, Gunnel Elander, and Gerhard Malmfors. 
        1997. ``Increased Parental Participation in a Pediatric 
        Surgical Day-Care Unit.'' Journal of Clinical Nursing 6 (July): 
        297-302.
Li, Jiehui, Guthrie S. Birkhead, David S. Strogatz, and R. Bruce Coles. 
        1996. ``Impact of Institution Size, Staffing Patterns, and 
        Infection Control Practices on Communicable Disease Outbreaks 
        in New York State Nursing Homes.'' AmericanJournal of 
        Epidemiology 143 (May): 1,042-1,049.
Lovell, Vicky, Kevin Miller, and Claudia Williams. 2009. Valuing Good 
        Health in Massachusetts: A Cost-Benefit Analysis. Washington, 
        DC: Institute for Women's Policy Research (February).
Lovell, Vicky. 2004. No Time to be Sick: Why Everyone Suffers When 
        Workers Don't Have Paid Sick Leave. Washington, DC: Institute 
        for Women's Policy Research.
Milkman, Ruth and Eileen Appelbaum. 2004. ``Paid Leave in California: 
        New Research Findings.'' State of California Labor (Fall)
National Partnership for Women & Families. 2007. Key Findings from 
        National Polling on Paid Sick Days. Washington, DC: National 
        Partnership for Women & Families (September 25).
Palmer, Sarah J. 1993. ``Care of Sick Children by Parents: A Meaningful 
        Role.'' Journal of Advanced Nursing 18 (February): 185-191.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Ms. Clay, I can't help but think that it would be a good 
learning experience for all of us if you would tell us what it 
took for you--leave your brother and get down here today.
    Ms. Clay. Well, thank you.
    I am fortunate--unfortunately, my son does not have a job 
because----
    Chairwoman Woolsey. The bad news and the good news, I 
guess.
    Ms. Clay. Yes, so he is helping me to take care of my 
brother, along with my daughter--she is a nurse and she is in 
school, and she needed a place to stay, so we compromised. She 
is at my house with my brother also.
    Chairwoman Woolsey. So two family members----
    Ms. Clay. Yes.
    Chairwoman Woolsey [continuing]. Filling in for you.
    Ms. Clay. Yes.
    Chairwoman Woolsey. Are you still getting your pay?
    Ms. Clay. No.
    Chairwoman Woolsey. Oh, because it is not you. They don't 
get paid, and so--okay. Today is a day without pay for you.
    Ms. Clay. Yes, it is.
    Chairwoman Woolsey. Okay. Go ahead.
    Ms. Clay. I guess what I would like to say is that paid 
time off and paid sick days, they would help me so much. I 
would be able to go to the doctor, you know? That little bit of 
money--I don't make much, as I told you, but that little bit of 
money could make me a healthier person, if I am on top of 
making sure that I am healthy, if I go to the doctors and take 
care of myself.
    There are so many people like me out there, and I am just 
asking you to have some compassion for those of us that can't 
afford the time off.
    Chairwoman Woolsey. Okay. Thank you.
    Ms. Clay. Thank you.
    Chairwoman Woolsey. Okay.
    Dr. Appelbaum, I am going to be your shill, so go ahead. 
Tell us how you think that--I mean, what your----
    Ms. Appelbaum. I want to----
    Chairwoman Woolsey [continuing]. How this would work in 
this economy.
    Ms. Appelbaum. Yes.
    I want to talk about paid sick days, which I think are even 
more important now in the midst of a severe recession. But I 
understand that the business community has a lack of confidence 
in what the future holds and would be very unwilling to make 
changes.
    And it is also very difficult for one employer to offer 
paid sick days if their competitors don't. So the big companies 
all do it, and the small companies all find it difficult to do.
    So one way to address this problem, I think, would be to 
provide a temporary subsidy from the federal government, say 
for 2 years, for up to 2 years, to small employers that 
introduce or increase the number of days of paid sick leave 
that they provide to their employees. The subsidy could be 
fully available to employers with 50 or fewer employees and 
phase out up to 100, because it is really all the way up to 100 
employees that we find this lack of paid sick days.
    And we could cap the--at 3 percent of annual pay and not to 
exceed a credit of $750 per worker. That would be enough to 
enable an employer to provide 7 paid sick days to an employee 
making up to $25,000 a year and having the costs covered.
    So I think something targeted to small employers, something 
that was temporary, lasting for the 2 years. I am hoping to God 
that the recession is not longer than that. Some say 2011, 
where things are looking up in this country. I am confident, 
with the policies we have in place now, that this will happen.
    But I do understand that this could be difficult times to 
provide paid sick days, especially for small employers. So 
something temporary and targeted to them in that way I think 
would make sense.
    Chairwoman Woolsey. So, Dr. Boushey, Family and Medical 
Leave Act. Why isn't that good enough?
    Ms. Boushey. That is a great question.
    If I could just add to one thing that Dr. Appelbaum said 
about paid sick days, what we are seeing in this recession 
right now is that folks who have lost their job are having a 
very, very difficult time getting back to work. Like, we are 
seeing a lot of job loss, but we are seeing very little job 
creation.
    So giving people job-protected paid sick days could help 
ensure that fewer folks lose those jobs and get out into the 
pools of unemployed people as well. So there is a potential 
macro effect and importance of making sure people have job-
protected leave.
    Chairwoman Woolsey. Okay. You have 1 minute to talk to me 
about Family Medical Leave.
    Ms. Boushey. Yes.
    So Family Medical Leave Act, it is not enough for two 
reasons. First of all, it doesn't cover everyone, covers--just 
a little bit over half the labor force is actually both 
eligible and working for a covered employer. So there are a lot 
of folks who simply don't have access to it. Anyone who works 
at a small firm doesn't have access.
    The second problem, of course, is that it is not paid. So 
while people can take some time off, many people who don't take 
leave report that the reason that they don't do it is because 
they can't afford to take the time off. Many of the things that 
Ms. Clay here was talking about earlier today, that it is hard 
for families to afford it.
    So we need to both make it paid, like they did in New 
Jersey and many other states. We also make sure that we are 
covering everyone so that every worker has the right to job 
protected leave.
    Chairwoman Woolsey. Thank you.
    Congressman Price?
    Dr. Price. Thank you, Madam Chair, and I want to thank the 
witnesses today for their testimony.
    Ms. Clay, as a physician, I took care of many patients who 
had CP, and I know the special challenges that you face, and 
God bless you for the work that you are doing for your brother.
    I was struck by, Dr. Appelbaum, your comment I think that 
you said that, ``It was unfair to ask employers'' to cover this 
cost, and then you talked about the importance of insurance and 
the way that that can work, which I think may hold, in fact, 
some promise.
    Would it be correct to say that you would not support, 
without that type of program, mandating this for employers?
    Ms. Appelbaum. No. If we are talking about family leave 
insurance, I don't think it should be mandated to employers.
    Dr. Price. Thank you.
    Ms. Appelbaum. I think it should be--I think, like, 
unemployment insurance, Social Security, worker's comp, it has 
to be a social insurance fund.
    Dr. Price. Because there are consequences for mandating it.
    Ms. Appelbaum. For everybody. But I think--I mean, if a 
person needs a leave of up to 6 weeks, that could be 
devastating to an employer.
    Dr. Price. Sure.
    Ms. Appelbaum. And the other thing is that it is 
unbalanced. If you are a--steel mill, you don't have to worry 
that too many of your employees are going to take time off to 
have a baby, but if it is a hospital, it is another story, 
obviously.
    Dr. Price. Ms. Bernard, I was struck by your testimony and 
the experience that you have as an employer, and the 
consequences of having the federal government determine exactly 
what employers ought to do. Would you expand more on the 
consequences of a federal mandate and the lack of flexibility 
that that would have for the workplace and the consequences for 
employers being able to hire workers?
    Ms. Bernard. Absolutely.
    I would like to start by giving you an example, because 
this is--it is a matter of compassion for all of us. And it 
really boils down to what is the proper role of government.
    Two years ago, one of our employees had a sister who was 
murdered her first week of college at the University of 
Vermont. It was an absolutely horrific experience for her and 
for the entire IWF family.
    I don't know what we would have done if we had the 
government mandating what kind of leave we gave her. We allowed 
her to take all of her paid sick leave, all of her paid 
vacation leave. And then, rather than the government mandate 
when she needed more time, all of the employees voluntarily put 
their own paid and sick days into a sort of piggybank and gave 
her as much time as possible with paid leave.
    People were willing to do that on a voluntary basis. I know 
that not all people are able to do that, but those are the kind 
of things that I think we should be looking at, rather than 
government mandates.
    I just got a notice yesterday that our health insurance 
premium is going up 33 percent this year. I don't know how we 
are going to afford that. I don't want to lay people off. I 
don't want to reduce salaries. I don't want to cut benefits.
    If there were to be a federal government mandate added in 
addition to what I am paying voluntarily for health insurance 
benefits, more women will lose their jobs. That is the 
unintended consequences of federal mandates, including the 
expansion of the Family Medical Leave Act.
    Dr. Price. I know that here in Washington, some folks think 
that it is just a bottomless pit, that money just--that you 
just keep printing money and printing money and printing money, 
and there is no end to it.
    I wonder if you would expand--the issue that you raise 
about health insurance, employers don't have a printing press 
in their garage like the federal government. So when they are 
forced to do something by the federal government that costs 
more, then where do they find that money?
    Ms. Bernard. Well, I mean, it is a great question. For 
example, in the nonprofit sector, nonprofit organizations are 
funded by donations that people make to that organization out 
of the goodness of their heart. I am not producing goods. I am 
not in the manufacturing business. I cannot go out to someone 
and say, ``My healthcare benefits are going up 33 percent. 
Would you please donate more money to IWF so that we can 
continue to fight the good fight?'' It just doesn't work that 
way, particularly in the current economic climate that we are 
in.
    So what happens, whether you are a nonprofit or a for-
profit business, you look at your bottom line. You say, if this 
is the mandate and this is what it is going to cost me, what I 
am going to have to do is cut other things from my budget.
    And more often than not, that is human resources. Benefits 
are incredibly expensive when you have got payroll taxes, 
Social Security taxes, every kind of tax you can possibly 
imagine, and then you add other things onto it, particularly if 
you are a company that provides voluntary benefits, such as 
paid sick leave and paid sick days off and maternity leave, and 
you have to hire employees to replace the people who are out on 
leave. It really can have a very devastating impact on women.
    Dr. Price. So when the numbers add up, then at some point 
you decrease the number of workers that you are able to hire.
    Ms. Bernard. Yes. You don't have a choice, not only that 
you are able to hire, but they are even able to keep on staff.
    Dr. Price. Thank you.
    Chairwoman Woolsey. I guess, because I am the chair, I get 
to say something if I want to.
    We all absolutely know that healthcare is the elephant in 
the room.
    Dr. Price. Reserving the right to object, Madam Chair, if I 
may. If you would like to speak, I am happy to have you do 
that, as long as there is appropriate time for rebuttal, as we 
are keeping things equal.
    Chairwoman Woolsey. Well, there is always time for 
rebuttal.
    Dr. Price. Thank you.
    Chairwoman Woolsey. But healthcare is the elephant in the 
room, and by fixing healthcare, it is not going to make it more 
expensive. It is going to become more efficient and more 
effective and less expensive if we do it right. If we don't do 
it right, shame on us.
    Dr. Price. If I may?
    Chairwoman Woolsey. You may.
    Dr. Price. You know, well, you are absolutely right. We fix 
healthcare, it makes it less expensive. The question that we 
are addressing here, though, is whether or not mandates for 
businesses result in the ability for employers to hire more 
workers or fewer workers, and to treat their workers with 
greater flexibility.
    Chairwoman Woolsey. Congressman Holt?
    Mr. Holt. Thank you, Madam Chair.
    And I thank the witnesses for addressing, really quite 
specifically, what is in front of us here, and quite clearly.
    And Ms. Clay, I must say you are a very admirable person.
    Ms. Clay. Thank you.
    Mr. Holt. And we thank you for coming today.
    Dr. Appelbaum, I would like to pursue and put in kind of 
larger context what you have had to say about family leave 
insurance and paid sick days. You are arguing, at least 
indirectly, and I would like you to speak more specifically, 
about the effect that extending these policies would have on 
the productivity in the economy. There has been a lot of 
attention to the cost to individual companies, or to 
individuals if they don't have these things.
    From the larger societal point of view, what is the 
benefit? Do you end up with a better economy if these things 
are provided?
    Ms. Appelbaum. You are right. That is a very good question, 
and there are numerous benefits.
    One of the big problems of not having leave is that you 
have two different kinds of things that happen. One is that 
people come to work even when they are concerned about a sick 
child. They leave the child. Child himself had surgery, is in 
the hospital.
    As the parent, you want to be with them. You have no paid 
time off. Not only that you have no paid time off, but, in many 
workplaces, unlike the one that has just been described here, 
which sounds like a fabulous place to work, people not only 
lose pay, but they can be fired for not having shown up.
    There are cases that we have seen where an employee is 
told, ``No, you cannot leave to go to the hospital,'' and the 
child has to wait until the workday is over so the parent can 
be there so the hospital can do what it has to do with the 
parents there to approve it.
    Those workers are not very productive. They may be in the 
workplace, but they are not very productive. You come to work 
with the flu, not only are you not productive, but you infect 
the rest of the workers. And as we know, the people who are 
least likely to have paid sick days work in food, restaurants 
and so on, and in nursing homes, in home healthcare and so on.
    So it is us. It is us that they are making sick.
    The point is that, in the workplace, if you have workers 
who can't focus on their jobs and who are making your fellow 
workers sick, of course this has a productivity impact. But the 
other piece of it is that, if this worker loses their job, 
either gets disgusted--I couldn't--``What do you mean, I can't 
go be with my kid,'' and walked out, or the employer fires them 
because of it, it takes a long time to hire a new employee and 
get them up to speed.
    And that is the other thing. That is a major loss in 
productivity during that entire period when you are looking for 
the new worker, when you are getting them up to speed. And so 
there are very serious productivity implications of all this. 
And a lot of employers know it, especially small employers know 
it.
    But I have been told when I go out and talk--I do a lot of 
talking to companies, and what they tell me is, if I have an 
employee and they need to take time off, first of all, turnover 
in small businesses are very high. If they want to come back, I 
am happy to take them back, and I know that there will be a job 
opening somewhere in the near future because turnover is so 
high.
    But what small businesses really regret is, if it is an 
extended leave, that they don't have the ability to actually 
cover that person's pay or provide them with partial wage 
replacement. They don't even have the paid sick days or paid 
vacation days that people could combine together.
    So if there is a state fund that they can pull from that 
the employees have contributed to and can take the money from, 
this means that you don't lose that employee. You don't lose 
the investment in your human capital that you have made. You 
don't have to do the search for a new employee. You don't have 
to do the training.
    Even in low-wage jobs, it is many, many thousands of 
dollars per worker every time this happens, and that is just a 
net loss to the economy.
    Mr. Holt. Dr. Boushey, would you care to comment on that 
same question, and perhaps more specifically whether the effect 
is greater with the lower wage workers than higher wage 
workers, or the other way around.
    Ms. Boushey. Well, I think that there are a couple of 
things. I mean, as Dr. Appelbaum has said, this issue of 
turnover is very important. One thing that we know about 
turnover is that it is just--it is--that the costs are 
relatively the same across the wage distribution.
    So until you get to the very highest paid workers, it costs 
about a fifth of an employee's salary to actually replace them, 
training somebody, the time you spend hiring. These are very 
significant costs across the wage distribution. It is not just 
the very special people at the top that it is expensive to do 
this for.
    So firms can save a lot of money if they are able to keep 
people at work. And of course, there are also social costs that 
come with unemployment for people who lose their jobs because 
they can't afford a paid sick day or they don't have job-
protected leave.
    I think it is important, too, that we are distinguishing 
between paid sick days and family leave insurance that we have 
been talking about here. When we are talking about paid sick 
days, we are thinking that that is something that firms would 
provide, that they would cover the cost of an employee taking a 
day--they have the flu or a relatively minor illness, something 
short-term and small, which is distinguished from the family 
leave insurance, where we think that that is something that 
needs to be--either at the state level or at the federal level, 
but not by an individual firm, sort of more of the long-term 
kinds of leave there.
    Mr. Holt. Well, I see my time has expired, so maybe you 
will have time to expand on that in further questioning.
    Thank you.
    Chairwoman Woolsey. Congressman Kline?
    Mr. Kline. Thank you, Madam Chair, and thank you to the 
witnesses. And apologies. We are in that sort of time of the 
year where there are multiple hearings going on as we scoot 
back and forth, trying to do due diligence and respect to the 
witnesses that are coming in other committees.
    And so I apologize for not being here for your testimony. 
Clearly, a very important subject, and it can have an impact 
sometimes in ways that are unintended.
    Let me start by noting that it appears that, in concerns 
that imposing a family leave law such as we have been 
discussing here today, might have an adverse impact on jobs in 
the large--in industries in particular and economies.
    I note here--I have got a little note sheet that says that 
in New Jersey, for example, there are some noises being made 
about postponing implementation of the paid family leave law, 
which is due to take effect July 1st, and we see actions--
things being discussed in Ohio and other places because there 
might be an adverse effect on jobs and the economy if you were 
to impose these sorts of mandates.
    Ms. Bernard, have you got some thought about that impact on 
the economy that these sort of mandates might have?
    Ms. Bernard. Yes.
    I have not specifically looked in depth at what is going on 
in New Jersey, but I can tell you that, in looking at studies 
that have been done, for example, by the Department of Labor, 
there are a lot of problems with FMLA as it currently exists. 
We have had some--by employers, employees, for example, how one 
defines the definition of a serious health condition.
    Some employees, for example, are seeing across the country 
that someone who has a cold might define that as a serious 
health condition under the Family Medical Leave Act and take 
off work for 2 or 3 days. How do you notify your employer 
that--there are people who will take off work, and under the 
Family Medical Leave Act, they don't have to tell their 
employer that they are taking FMLA days off until after the 
fact rather than before the fact.
    So when you have problems with how you define a serious 
medical condition, when you have problems with notification, 
problems with the timing of leave, what we see is that it gives 
an incentive for employers to not intentionally do so, but to 
maybe even discriminate against who they hire.
    For example, somebody might think, for example, that maybe 
they don't want to hire women in the workforce because they 
have children to take care of. They might be taking maternity 
leave. Women are more inclined to use their time under FMLA 
than men, for example. It is an unintended consequence. It 
could be an unintended consequence of mandating these type of 
things, or even expanding FMLA on employers of any size across 
the country.
    Mr. Kline. Yes, thank you.
    I think that those concerns, in fact, that you just 
suggested, this illegal and inappropriate discrimination--but 
unofficial, of course, and that is the problem--is one of those 
unintended consequences you don't want to see happen. And it is 
one of the reasons many of us have been looking at the idea 
that Mrs. Morris Rogers has put forward, and I understand that 
was brought up earlier.
    But this idea of ensuring that employees--and it would seem 
to be particularly important to women employees, but employees 
across the board--that they be able to take comp time, time off 
to spend with their families, which is a little bit different 
than the medical leave but, nevertheless, an important piece of 
the quality of life for these employees, that this would be a 
positive step in order to give the kind of flexibility which we 
are sort of talking about here today.
    Thank you, Madam Chair. I yield back.
    Chairwoman Woolsey. Thank you.
    Congresswoman Shea-Porter?
    Ms. Shea-Porter. Thank you.
    And thank you to the witnesses for being here today.
    Ms. Bernard, I listened to your comments with great 
interest. I grew up with parents who had small businesses, and 
certainly saw the struggle at times, and recognized the 
pressures that they feel.
    But on the other hand, our job here is to make sure that we 
take care of more than just your group who work for you, and 
you sound like you have a very good workplace. But we have Ms. 
Clay, who struggles every single day, and millions more like 
her. And so we can't just look at one group. We have to look at 
the impact across the country.
    So I wanted to ask you, first of all, is there any floor 
for you? Like, do you think that we should at least have a 
minimum number of paid sick days, for example, knowing people 
like Ms. Clay desperately need a sick day so that they can take 
care of themselves? Do you have a floor where you say, okay, 
the federal government at least has a right to impose this?
    Ms. Bernard. Actually, no. I am somebody who believes that 
it is improper for the federal government to intervene in the 
type of contract between an employer and an employee that we 
are talking about. I think that employers and employees should 
be left to negotiate those terms themselves.
    I think that the unintended consequences and the potential 
to have a negative impact on women and low-wage workers is 
really something that we have to be very concerned with. And 
when you mandate that, particularly when we believe that many 
companies do so voluntarily, that you could actually be harming 
the people that you are trying to help the most.
    Ms. Shea-Porter. Okay.
    So if we don't mandate that, do you think that, if people 
are unable to work--say Ms. Clay simply can't deal with this 
stress anymore and she becomes ill. Does the federal government 
or anybody have responsibility to care for her? I am just 
trying to figure out where the floor is for you.
    Ms. Bernard. I would actually advocate that the federal 
government do something similar to what we have seen with 
401(k) plans and IRAs, and actually mandate some sort of tax 
advantage status where people could set up, similar to a 401(k) 
plan, a paid leave plan, and even give employers incentive to 
match employee contributions so that when----
    Ms. Shea-Porter. Okay, which sounds really good, but I am 
sure you just heard Ms. Clay talk about her financial 
situation.
    So again, since she is unable to save, she has got people 
depending on her--and I hope, Ms. Clay, that you don't mind me 
using you as an example, but I think you are a perfect example 
of people who work very hard in this country and play by the 
rules and still can't make it.
    So we can forget the 401(k), I assume. You are just hoping 
to get a mammogram. Then what?
    Ms. Bernard. I am sorry. I don't understand the question.
    Ms. Shea-Porter. She can't afford a 401(k). Your suggestion 
was to set up a 401(k) to help with all these problems that 
might come from health problems, et cetera. But if they can't 
afford a 401(k), where do you think the government should come 
in on these issues of either paid leave or sick leave or any 
kind of benefits?
    Ms. Bernard. I think that people would need to begin to 
rely more on civil society than on the federal government. The 
federal government nowadays seems as if it is paying for 
everything.
    Ms. Shea-Porter. Did you say civil society?
    Ms. Bernard. Yes, I did.
    Ms. Shea-Porter. Okay. All right. So, yes, what do you 
mean? Like, Ms. Clay should go where, or people like Ms. Clay?
    Ms. Bernard. Ms. Clay I think should continue to do what 
she is doing. I was listening to her testimony and, frankly, 
was going to speak to her about where she can go and get a free 
mammogram.
    Ms. Shea-Porter. All right, which is wonderful, and that 
is--I saw that when you were talking about your business. But 
the point that I am making is that, if we don't do anything, 
then we have millions of people who will fall through the 
safety net. So there has to be some floor. Whether we do it in 
the FMLA or whether we do it mandating sick days or something, 
we have to do something.
    Now, you talked about some employees should be allowed to 
negotiate reduced benefit because they have reduced risk.
    Ms. Bernard. Yes.
    Ms. Shea-Porter. But everybody who gets out of bed in the 
morning has risk. So I wanted to ask you, if you could 
negotiate a reduced benefit because somebody decided that they 
were low risk, and then something happened to that person, who 
would step in? Would it be the employer, or would it be the 
government?
    Ms. Bernard. If we were to reduce the cost----
    Ms. Shea-Porter. Right. You want to allow them to be able 
to negotiate a package because they determined that they have 
reduced risk. That is what I read in your testimony. Am I 
getting that right?
    Ms. Bernard. No. Actually, what I was saying was that I 
believe that employers and employees should be able to 
negotiate what your benefits package is.
    I think that I should be able to sit down and talk with my 
employees and say, ``Here is how much our health insurance is 
increasing this year. It is a 33 percent increase. Here are the 
options available. What would you like to do?'' I think that 
that is my job as the employer, and I should be able to have 
the right to negotiate it and discuss it with my employees 
without the federal government saying, ``You must pick up the 
additional 33 percent cost to pay for health insurance for your 
employees.''
    Ms. Shea-Porter. Well, this is where I connect the dots 
because, if we do that--and I am not making a statement one way 
or the other on your position.
    But if we do that, and people opt for a lower standard and 
then become ill and need more help, you didn't pay for it, and 
that employee didn't pay for it, but somebody is going to pay 
for it. And I guess that somebody would be the state or the 
federal government.
    So what would you say to that person, then? ``Sorry. You 
gambled, got it wrong, and I got it wrong also. Let us leave 
the government out, because I don't think the government should 
be involved.''
    Ms. Bernard. No. I am not--there is a proper role for 
government. I think it is finding the balancing act. Nobody 
that I know of wants the government to make them bankrupt. I 
would say that----
    Ms. Shea-Porter. But they want them to pay their medical 
care if they have a problem.
    I have run out of time. Thank you.
    Chairwoman Woolsey. Congressman Hare?
    Mr. Hare. Thank you, Madam Chair.
    It is interesting that the ranking member mentioned we seem 
to--we talk about the bottomless pit. We just are spending 
enough money on AIG to--per second to put a person through 
Harvard for 4 years, $10 billion a month on a war and tax 
breaks to the richest 1 percent of the people in this nation. 
And we are going to have to figure out a way to get Ms. Clay a 
free mammogram. I think we completely have our priorities here 
upside-down.
    I would say--to be honest, Ms. Bernard, I am troubled by a 
few things. Last year, President Bush signed into law the 
expanded FMLA for workers with family members who have been 
seriously injured in a war. Do you oppose leave for those 
workers as well?
    Ms. Bernard. No, I don't.
    Mr. Hare. And do you think that they should be paid?
    Ms. Bernard. I do think they should be paid.
    Mr. Hare. You do? Okay.
    You have written that, if forced to provide paid leave, 
companies will not hire women of childbearing ages. Do you 
have--first of all, is that not discriminatory? And do you have 
any evidence to substantiate that?
    Ms. Bernard. It is discriminatory. And as you will see with 
the reasoning, I think, behind the Lilly Ledbetter Act that was 
passed, women have a quite--very difficult time proving paid 
discrimination when it does, in fact, exist.
    I think it is a natural assumption to believe that 
sometimes people are not moved by the most moral reasons for 
acting in certain ways. And I would tell you that most women 
feel in fear of telling an employer when they are pregnant or 
whether or not they want to have a family out of fear that 
somebody may not hire then out of fear that they are going to 
have to pay maternity leave benefits.
    Mr. Hare. Your colleague, Carrie Lucas, in 2008, wrote that 
it was really up to individuals to pay for circumstances that 
might be needed for leave. And you mentioned this a few minutes 
ago, that families--in my district, I don't know, particularly 
for the 1,600 people who just lost their job at Maytag--
families are scraping by, two million homes ready to go into 
foreclosure.
    How in heaven's name do you really think that people are 
going to be able to sit and come up with a 401(k) plan to be 
able to give them paid leave? Let me just say, it is not going 
to happen.
    Second of all, you also talk about this--gosh forbid that 
we would have the federal government intervene, that this could 
be negotiated between the employee and the employer. What if 
the employer doesn't feel like negotiating, and they tell Ms. 
Clay, ``Well, that is just too bad?''
    So it just seemed to me--let me just say that I understand 
where you are coming from, but I could not disagree with you 
more on this. I think we have a moral obligation here. When I 
keep hearing about the federal government and the evils of what 
the federal government does, we provide healthcare for 
veterans, we provide Social Security, we provide Medicare. I 
hear sometimes we don't do it perfectly, but I don't hear about 
the evils of that.
    But heaven forbid that we would want to have somebody like 
Ms. Clay or other people have the opportunity, or--and in your 
case, and I really applaud the people that pooled their 
resources together to help the young person out who had the 
tragedy in their family.
    But is that really honestly the way we want to treat 
employees? I mean, I used to work in a clothing factory where 
you had no paid sick days, where women were told, ``6-week 
maternity leave, and if you are not back on the following day, 
you are out of work.'' This is in a unionized factory.
    So I guess my point being I sit and listen to all of these 
arguments about the evils of government intervention, and woe 
is us, woe be to us if we err on the side of Ms. Clay. You see, 
my viewpoint is I don't think you should be trying to find a 
place for Ms. Clay to get a free mammogram.
    We ought to be providing those for people like Ms. Clay. We 
ought to be providing the type of paid leave so that she can 
spend time with her brother and not arguing over whether or not 
percentages.
    And I am troubled when I see--for example, you have 
testified that it is not the government's job to provide sick 
leave for employees. What if somebody works at a school 
cafeteria? Do you want that person coming in and serving food 
to the kids who has the flu, who has--who is very, very ill? I 
mean, I don't want my kid being served lunch by someone who is 
sicker than a dog.
    So shouldn't we--don't we have a moral obligation to, A, 
keep our kids safe and allow that person the opportunity to be 
home and get paid for being sick?
    Ms. Bernard. Sir, I am a firm believer in that biblical 
phrase that, ``I am my brother's keeper.'' I do think we have a 
moral obligation to help one another. I think this is a matter 
of finding the correct balance.
    When you say, ``Don't we have an obligation to pay for 
this,'' the question is, who actually is paying for it? The 
government is made up of the people.
    Mr. Hare. I agree.
    Let me just leave you with one biblical phrase, too, since 
you brought it up. I believe someone a couple-thousand years 
ago said that, ``Whatsoever you do to the least of My people, 
that you do unto Me.''
    I would yield back, Madam Chair.
    Thank you very much.
    Chairwoman Woolsey. And in conclusion, Congressman Price is 
going to provide his closing remarks.
    Dr. Price. Thank you, Madam Chair. I want to thank you for 
holding this hearing, and I want to thank all of the witnesses. 
I think this has actually been very enlightening about the 
different views that we hold and that the witnesses hold about 
the role of government.
    We have heard about the imperative from at least two of the 
witnesses of not mandating these types of programs to employers 
because of the consequences that can occur, and will occur, if 
that happens, and that is that, in fact, we would decrease the 
number of jobs available.
    There are wonderful options, positive options, available to 
us as a nation, and I would just echo some of the comments of 
Ms. Bernard about the imperative of charity in the community. 
We all know and understand that charity in the community is 
paramount, is important, is necessary, and is more broad when 
government is not involved in mandating charity. When 
government mandates charity, then, in fact, what people do is 
contract their charitable activity.
    So yes, we do have a moral obligation to help, but the 
question is what help ought be provided. Is the help a 
construct of a system that makes it so that employers and 
employees have greater opportunity to succeed, each of them 
have greater opportunity for more economic activity, have 
greater opportunity for realizing their own dreams, or is the 
obligation to increase the role of government, and thereby 
decrease the ability of individuals and businesses across this 
nation to have greater opportunity for success.
    So thank you, Madam Chair. I appreciate the opportunity to 
have these witnesses testify today, and look forward to our 
continuing work together.
    Chairwoman Woolsey. Well, thank you, sir, Ranking Member. 
Is that--if I am Madam Chair, you are Sir, right?
    Dr. Price. I am just your buddy, Tom.
    Chairwoman Woolsey. Well, thank you all for attending this 
hearing today. It has been a good one. And I want to thank all 
of you for being available, and I have to say particularly you, 
Ms. Clay. I mean, thank you for getting down here and making 
this effort, getting your family to help you so that you could 
testify on this more than an important subject.
    What we have heard today makes it even clearer that, during 
good times and bad times, employees and employers benefit from 
family-friendly policies. And over time, it is proven that good 
employment practices that are fair and that are helpful to the 
employee proves out to be more positive than negative, period.
    If you have an employee who needs to take care of their 
family, if you help them in that regard, they become a more 
productive worker. They are a more loyal employee, in the long 
run. And when they are back to work, they are paying attention.
    I will tell you, I have four kids, work. And if something 
was going wrong with one of my children, my head was home. I 
mean, I was, too, actually. I happened to be very lucky.
    But if I couldn't be, I mean, I was just absolutely torn to 
pieces, and every single working parent is the same. And it is 
not just female workers. It is the male workers, too. If they 
are lucky enough to have a partner where they can take turns--I 
watch my kids.
    I have--three of our four children have families, and they 
are all professionals. All three have six professional workers. 
And they work so hard. They travel long distances. They work 
long hours. They are always juggling. But in this day and age, 
the dad is just as helpful as the mom. But not all families 
have two-parent families.
    So it is so important that we do the right thing for these 
families because it is the kids that lose out in the end. And 
we have a society that says, if you can, everybody needs to be 
in the workforce. Therefore, somebody has to care about who 
takes care of these children.
    And I don't mean just daycare. I mean, having parents 
available not only for sick days. How about for going to the 
school play and the teacher conference? Those are the kinds of 
things that say to our children, ``Guess what? We care for you 
and value you in our society.''
    And I will be working with all of you on this. We are going 
to make it happen. We are going to balance work and family so 
that parents don't have to choose between their job and their 
kids. What an impossible choice is that? So let us fix it so 
that doesn't have to happen.
    Thank you very, very much.
    Okay. As previously ordered, members will have 14 days to 
submit additional materials for the hearing record. If any 
members who wish to submit follow-up questions in writing to 
the witnesses want to, they should coordinate with majority 
staff within 14 days.
    So, without objection, the hearing is adjourned. Thank you 
very, very much.
    [Statement of Mrs. McMorris Rodgers, submitted by Mr. 
Price, follows:]

Prepared Statement of Hon. Cathy McMorris Rodgers, a Representative in 
                 Congress from the State of Washington

    Thank you Chairwoman Woolsey for holding a hearing on such an 
important issue. I want to also thank our witnesses for taking the time 
to join us here today to share their perspectives of how Americans can 
better balance work and family in today's economy.
    Without a doubt the biggest concern for people in this struggling 
economy is job security. We see headlines everyday about employers who 
have been forced to scale back production and let employees go because 
of our economy. Employers such as KPMG and Toyota are doing everything 
possible to hold onto their employees through these tough times. In 
light of these circumstances, there is no question that now is not the 
time to mandate new costs on employers through enhanced vacation and 
paid family time policies. Such costs only make efforts to hold onto 
employees more difficult and I will not support policies that will 
encourage further layoffs.
    One of the biggest struggles parents face is how to balance work 
and family. Being a new mom myself, I struggle with balancing these 
aspects every day. Employees are looking for flexibility so they can 
put in the time they need to get the job done, but also make sure they 
can make the school play, stay home with a sick child or care for an 
elderly parent. Of course, none of this matters if the company goes out 
of business. We must balance the costs and benefits that workplace 
flexibility policies have on both employees and employers.
    The perception is that mothers and parents have a greater desire 
for workplace flexibility than other people; the reality is that men 
and women, parents and non-parents, young and old alike place a high 
priority on increased flexibility at work.
    For many employers, flexible work arrangements are necessary to 
attract and retain quality employees. In return for offering employees 
alternative work arrangements and greater flexibility in work 
schedules, employers gain a workforce that is more productive, 
committed and focused. For example, an insurance company in my home 
state of Washington saw per-employee revenue increase 70 percent over 
five years after implementing flexible work options.
    Our labor force isn't what it used to be. Between 1950 and 2000, 
the labor force participation rate of women between 25 and 55 years of 
age more than doubled. Today, more than 75 percent of these women are 
in the labor market. Less than 12 percent of mothers with children 
under the age of six were in the labor force in 1950. Today, more than 
60 percent work outside the home.
    One of the obstacles to flexibility in the workplace is the 1938 
Fair Labor Standards Act (known as the ``FLSA''), which governs the 
work schedules and pay of millions of hourly workers. While the law may 
have been a good fit for the workforce in the 1930s, a lot has changed 
in 70 years and FLSA is simply not relevant to the needs of modern 
families.
    The FLSA unfortunately fails to address the needs and preferences 
of employees in the area of flexible work schedules. Although salaried 
employees typically have greater flexibility in their day-to-day 
schedules, hourly employees are much more restricted--due in large part 
to the outdated FLSA--in their ability to gain greater flexibility in 
their work schedules.
    This is why I introduced the Family-Friendly Workplace Act that 
would update the FLSA and allow private sector employers the option to 
offer employees additional time off in lieu of overtime pay. A study by 
the Employment Family Foundation found that 75 percent of people prefer 
time off instead of overtime pay and more than eight in ten women 
prefer to have that benefit as well.
    I believe the Family-Friendly Workplace Act would complement the 
Family Medical Leave Act (FMLA) by providing employees with an option 
to accrue paid time off, which could then be taken by the employee at a 
later date. Under the Family-Friendly Workplace Act, compensatory time 
(known as ``comp time'') belongs to the employee, and the employee can 
use it for any purpose, at any time. It is often more difficult for 
hourly paid employees to take unpaid leave under the FMLA. By contrast, 
comp time is directed specifically at hourly employees, giving them the 
opportunity to have the same flexibility that salaried employees (as 
well as people in the public sector) already enjoy.
    To be clear, the Family-Friendly Workplace Act would not change the 
employer's obligation under the FLSA to pay overtime at the rate of 
one-and-one-half times an employee's regular rate of pay for any hours 
worked over 40 in a seven day period. The bill would simply allow 
overtime compensation to be given--at the employee's request--as paid 
comp time off, at the rate of one-and-one-half hours of comp time for 
each hour of overtime worked, provided the employee and the employer 
agree on that form of overtime compensation. The bill contains numerous 
protections to ensure that the choice and use of comp time is a 
decision made by the employee.
    One of the best features of my legislation is that it provides 
greater choice and flexibility to employees without the costly 
mandates. My bill would give private sector employees an opportunity to 
spend the time they need with their family or to receive the overtime 
pay they have earned just like many public sector employees do today.
    Most of the witnesses here today advocate for proposals to create 
costly one-size fits all employer mandates. As our nation faces the 
most severe economic downturn it has seen in decades, increasing labor 
costs by way of employer mandates for expanded leave policies is likely 
to hinder economic recovery, if not lead to more layoffs.
    Instead, we must to respond to the growing needs of people who want 
to better integrate work and family. Women and men should be able to 
decide for themselves whether paid time off or extra pay best fits 
their needs and that of their families.
    It's a matter of helping people focus on doing what's best for 
families, small businesses and the next generation, or future.
                                 ______
                                 
    [Questions submitted to Ms. Clay from Mr. Price follow:]

                                             U.S. Congress,
                                    Washington, DC, March 17, 2009.
Ms. Reiba Mixon Clay,
South Laporte Avenue, Chicago, IL.
    Dear Ms. Clay: Thank you for testifying at the March 3, 2009, 
Committee on Education and Labor Subcommittee on Workforce Protections 
Hearing on ``Encouraging Family-Friendly Workplace Policies.''
    Committee Members had additional questions for which they would 
like written responses from you for the hearing record.
    Congressman Price asks the following questions:
    1. Are you currently, or have you at any time in the past, acted as 
a ``member lobbyist'' for the Service Employees International Union 
(SEIU)? For purposes of these questions, the term ``member lobbyist'' 
refers to participation in any lobbying or advocacy efforts on behalf 
of SEIU or any of its affiliates.
    2. Please describe how you were selected to be a ``member 
lobbyist'' for the SEIU, and detail your activities and duties as an 
SEIU ``member lobbyist.''
    3. Do you receive any compensation from SEIU for your service as a 
``member lobbyist?'' For purposes of this question, ``compensation'' 
includes wages (whether hourly, salaried, per diem, contract, or in any 
other form), travel expenses, lodging, meals, the reimbursement of 
expenses, or any other benefit provided to you by SEIU.
    4. If the answer to question 3 is ``yes,'' please provide the 
nature and amount of any and all such compensation you have received or 
expect to receive for your service as a ``member lobbyist.''
    5. On what date did you begin your service as a ``member lobbyist'' 
and on what date do you anticipate ending that service?
    6. Where have you resided during your tenure as a ``member 
lobbyist?''
    7. You testified at the hearing that your employer was the State of 
Illinois. Have you received, or do you anticipate receiving, any 
compensation from the State of Illinois by virtue of your employment 
during your tenure as a ``member lobbyist?'' If so, please provide the 
nature and amount of any such compensation.
    8. Please provide the names, employer(s), and job titles of any 
person or persons who assisted you in the preparation of your written 
testimony before the Subcommittee on Workforce Protections on March 3, 
2009.
    9. Please provide the names, employer(s), and job titles of any 
person or persons who assisted you in the preparation of your responses 
to these questions.
    Please send your written response to the Subcommittee staff by COB 
on Tuesday, March 17th--the date on which the hearing record will 
close. If you have any questions, please contact the committee 202-225-
3725. Once again, we greatly appreciate your testimony at this hearing.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                                 ______
                                 
    [Responses from Ms. Clay follow:]

                                                    March 20, 2009.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives, 2181 
        Rayburn House Office Building, Washington, DC.
    Dear Chairman Miller: Below find the responses to the additional 
questions from the Committee regarding my testimony at the March 3, 
2009, Committee on Education and Labor Subcommittee on Workforce 
Protections hearing on ``Encouraging Family-Friendly Workplace 
Policies.''
    Question 1. Are you currently, or have you at any time in the past, 
acted as a ``member lobbyist'' for the Service Employees International 
Union (SEIU)? For purposes of these questions, the term ``member 
lobbyist'' refers to participation in any lobbying or advocacy efforts 
on behalf of SEIU or any of its affiliates.
    Answer 1: Yes, I am currently a member lobbyist for the Service 
Employees International Union.
    Question 2. Please describe how you were selected to be a ``member 
lobbyist'' for the SEIU, and detail your activities and duties as an 
SEIU ``member lobbyist.''
    Answer 2: I was identified and recommended for this program by the 
leadership of my Union Local, and selected by SEIU.
    My activities have entailed educating federal elected officials and 
constituents on health care and employee free choice. My duties include 
attending Congressional hearings and meetings, engaging in voter 
education outreach, public speaking, distributing information to 
Congressional offices, and SEIU member to member training and 
education.
    Question 3. Do you receive any compensation from SEIU for your 
service as a ``member lobbyist?'' For purposes of this question, 
``compensation'' includes wages (whether hourly, salaried, per diem, 
contract, or in any other form), travel expenses, lodging, meals, the 
reimbursement of expenses, or any other benefit provided to you by 
SEIU.
    Answer 3: Yes
    Question 4. If the answer to question 3 is ``yes,'' please provide 
the nature and amount of any and all such compensation you have 
received or expect to receive for your service as a ``member 
lobbyist.''
    Answer 4: I receive for my service as a member lobbyist $500 per 
week before taxes, $35 per diem for meals and incidental expenses, as 
well as lodging, and airfare for two trips to and from Washington--one 
at the outset of my service and one visit home during my service.
    Question 5. On what date did you begin your service as a ``member 
lobbyist'' and on what date do you anticipate ending that service?
    Answer 5: My service as a ``member lobbyist'' for SEIU began on 
February 2, 2009, and it ends on April 3, 2009.
    Question 6. Where have you resided during your tenure as a ``member 
lobbyist''?
    Answer 6: While in Washington, I am residing in Crystal City, 
Virginia.
    Question 7. You testified at the hearing that your employer was the 
State of Illinois. Have you received, or do you anticipate receiving, 
any compensation from the State of Illinois by virtue of your 
employment during your tenure as a ``member lobbyist?'' If so, please 
provide the nature and amount of any such compensation.
    Answer 7: I wish to correct and amplify my answer. The State of 
Illinois is not technically my employer. My client is my employer. I am 
an independent worker who receives payments from the State of Illinois 
for my services as a personal assistant to my client. I found a 
substitute to provide services to my client during my absence, and 
continued to receive payments for these services from the state of 
Illinois during this time. As a member lobbyist, I received the 
compensation described in my response to question 3.
    Question 8. Please provide the names, employer(s), and job titles 
of any person or person who assisted you in the preparation of your 
written testimony before the Subcommittee on Workforce Protections on 
March 3, 2009.
    Answer 8: Allicyn Wilde; Employer: SEIU Healthcare 775 NW; Title: 
Policy and Research Analyst.
    Mark McCullough; Employer: Service Employees International Union; 
Title: Senior Campaign Communications Specialist.
    Desiree Hoffman; Employer: Service Employees International Union; 
Title: Senior Legislative Advocate.
    Question 9. Please provide the names, employer(s), and job titles 
of any person or persons who assisted you in the preparation of your 
responses to these questions.
    Answer 9: Melody R. Webb; Employer: Service Employees International 
Union; Title: Associate General Counsel.
    John J. Sullivan; Employer: Service Employees International Union; 
Title: Associate General Counsel.
                                 ______
                                 
    [Additional submissions for the record from Ms. Woolsey 
follow:]

  Prepared Statement of the National Partnership for Women & Families

    The National Partnership for Women & Families commends Chairwoman 
Lynn Woolsey and Ranking Member Tom Price for convening a series of 
hearings to examine workplace policies that help workers meet their 
responsibilities on the job and to their families. The National 
Partnership is a non-profit, non-partisan advocacy group dedicated to 
promoting fairness in the workplace, access to quality health care, and 
policies that help workers in the United States meet the dual 
responsibilities of work and family.
Now more than ever--workers need workplace policies that meet their 
        work and family responsibilities
    The economic crisis our country is currently facing has been 
devastating for working families. More than 11.6 million workers have 
lost their jobs, and millions more are underemployed. In February 2009, 
the unemployment rate was 8.1 percent--the highest level since December 
1983. The unemployment rate for African Americans was 13.4 percent, the 
rate for Hispanics was 10.9 percent and the rate for whites was 7.3 
percent in January 2009. For many families that once relied on two 
incomes, this crisis has meant managing on one income, or no income at 
all. As a result, families are not only losing their economic 
stability, but their homes too: one in nine mortgages is delinquent or 
in foreclosure.\1\
    Especially in this economic crisis, when workers are stretched 
thin, having to take time off for a single common illness or a serious 
medical condition shouldn't lead to financial disaster for families. 
Workers have always needed to care for their children, families and 
elderly relatives, and at the same time, be are productive, responsible 
employees. But today, when workplaces don't provide the basic labor 
standards of paid family and medical leave or paid sick days, families' 
economic security is at risk. In this economic climate, these basic 
workplace standards help prevent workers from being forced to choose 
between their health or the health of their family, and their paycheck 
or even their job.
    Our nation has a history of passing laws to help workers in times 
of economic crisis. Social Security and Unemployment Insurance became 
law in 1935; the Fair Labor Standards Act and the National Labor 
Relations Act became law in 1938, all in response to the crisis the 
nation faced during the Great Depression. Working people should not 
have to risk their financial health when they do what all of us agree 
is the right thing--take care of a family member who needs them. Now is 
the time to put family values to work by adopting policies that expand 
the FMLA, guarantee a basic workplace standard of paid sick days and 
establish a national paid family and medical leave program.
The FMLA is a first step--and needs to be expanded
    The Family and Medical Leave Act (FMLA) is the only federal law 
that helps our nation's workers meet the dual demands of work and 
family. It provides unpaid, job-protected leave for up to 12 weeks a 
year to care for a newborn, newly adopted or foster child, to care for 
a seriously ill family member, or to recover from an employee's own 
serious illness. The FMLA means essential job protections that can 
allow workers to take time off without losing their jobs.
    Laws like the FMLA could not be more important in times of economic 
downturn, and more workers need access to the protections afforded by 
the law. The federal FMLA does not cover all the workers and family 
members who need to take time off to recover from illness or care for a 
family member, especially as the population ages and more people in 
this country have chronic diseases. It does not cover domestic partners 
and the children of domestic partners and that is intolerable 
discrimination. And many more workers are not covered by the FMLA 
because they work for businesses with fewer than 50 employees or work 
part-time as growing numbers of workers are being forced to do in this 
economic downturn as businesses cut hours.
    The FMLA also does not address many workers' day-to-day health 
needs. FMLA coverage for illnesses is limited to serious, longer-term 
illnesses and the effects of long term chronic conditions. The law does 
not offer time off to workers to deal with common illnesses that do not 
meet the FMLA standard of ``serious'' or for routine medical visits for 
themselves and their families. In addition, millions of workers cannot 
afford to take advantage of the protections the FMLA provides because 
the leave is not paid.
Workers need paid sick days
    Nearly half of all private-sector workers do not have access to 
paid, job-protected sick days.\2\ Seventy-nine percent of low-income 
workers--the majority of whom are women--do not have a single paid sick 
day.\3\ The problem is particularly acute for working women--the very 
people who predominantly remain responsible for meeting family care 
giving needs. In fact, almost half of working mothers report that they 
must miss work when a child is sick. And of these mothers, 49 percent 
do not get paid when they miss work to care for a sick child.\4\ Women 
also are disproportionately affected by the lack of a standard of paid 
sick days because they are more likely to work part-time (or cobble 
together full-time hours by working more than one part-time position) 
than men. Only 16 percent of part-time workers have paid sick days, 
compared to 60 percent of full-time workers.\5\
    As our population ages, more working families are providing care 
for elderly parents--and needing paid sick days to do so. Caregiving 
takes a financial toll on working people, especially when they have to 
take unpaid time off from work. Over 34 million caregivers provide 
assistance at the weekly equivalent of a part time job (more than 21 
hours), and the estimated economic value of this support is roughly 
equal to $350 billion.\6\ Among caregivers, 98 percent reported 
spending on average $5,531 a year, or one-tenth of their salary, for 
out-of-pocket expenses.
    The lack of paid sick days is also a public health concern. Workers 
who interact with the public every day are much less likely to have 
paid sick days.\7\ Only 22 percent of food and public accommodation 
workers have any paid sick days, for example. Workers in child care 
centers, retail clerks, and nursing homes also disproportionately lack 
paid sick days.\8\
    No state requires private employees to provide paid sick days. San 
Francisco, the District of Columbia and Milwaukee have passed 
ordinances requiring that private-employers provide paid sick days. 
Over a dozen cities and states are working to pass paid sick days laws 
to ensure this basic labor standard becomes a right for all workers. 
But illness knows no geographic boundaries, and access to paid sick 
days should not be dependent on where you happen to work. Paid sick 
days is a basic labor standard like the minimum wage--and as with the 
minimum wage, there should be a federal minimum standard of paid sick 
days that protects all employees, with states free to go above the 
federal standard as needed to address particular needs of their 
residents.
Workers need paid family and medical leave
    Without some form of wage replacement, the FMLA's promise of job-
protected leave is unrealistic for millions of women and men. In fact, 
78 percent of employees who qualified for FMLA leave and needed to take 
the leave did not do so because they could not afford to go without a 
paycheck.\9\ More than one-third (34 percent) of the men and women who 
take FMLA receive no pay during leave, and another large share of the 
population have a very limited amount of paid leave available to 
them.\10\
    When a personal or family medical crisis strikes, workers 
frequently have no choice but to take unpaid leave or quit their jobs. 
As a result, for many workers, the birth of a child or an illness in 
the family forces them into a cycle of economic distress. Twenty-five 
percent of all poverty spells begin with the birth of a child.\11\ The 
lack of paid family and medical leave hits low-income workers hardest: 
almost three in four low-income employees who take family and medical 
leave receive no pay, compared to between one in three and one in four 
middle-and upper-income employees, respectively.
    Providing paid family and medical leave helps ensure workers can 
perform essential caretaking responsibilities for newborns and newly-
adopted children. Parents who are financially able to take leave are 
able to give new babies the critical care they need in the early weeks 
of life, laying a strong foundation for later development. Paid family 
and medical leave may even reduce health care costs. Studies have shown 
that when parents are able to be involved in their children's health 
care, children recover faster.\12\ Paid family and medical leave also 
would help the exponentially growing number of workers who are caring 
for older family members. Thirty-five percent of workers, both women 
and men, report they have cared for an older relative in the past 
year.\13\ Roughly half of Americans 65 years of age and older 
participate in the labor force. Many require time away from work to 
care for their own health and the health of a family member.\14\
Businesses benefit from paid leave policies
    Research confirms what working families and responsible employers 
already know: when businesses take care of their workers, they are 
better able to retain them, and when workers have the security of paid 
time off, they experience increased commitment, productivity, and 
morale, and their employers reap the benefits of lower turnover and 
training costs. Furthermore, studies show that the costs of losing an 
employee (advertising for, interviewing and training a replacement) is 
often far greater than the cost of providing short-term leave to retain 
existing employees. The average cost of turnover is 25 percent of an 
employee's total annual compensation.\15\
    Paid sick days policies also help reduce the spread of illness in 
workplaces, schools and child care facilities. In this economy, 
businesses cannot afford ``presenteeism,'' when sick workers come to 
work rather than stay at home. ``Presenteeism'' costs our national 
economy $180 billion annually in lost productivity. For employers, this 
costs an average of $255 per employee per year and exceeds the cost of 
absenteeism and medical and disability benefits.\16\ In addition, 
establishing a national paid family and medical leave program will help 
small business owners because it will allow them to offer a benefit 
that they could not afford to provide on their own. This will help 
level the playing field with larger businesses, making it easier for 
small businesses to compete for the best workers.
    Now more than ever, when families are struggling and jobs are 
scarce, workers need workplace policies like paid family and medical 
leave and paid sick days. Working families should not have to risk 
their financial well-being to care for their health or a family member 
who needs them. We must put family values to work by adopting policies 
that expand the FMLA, guarantee a basic workplace standard of paid sick 
days and establish a national paid family and medical leave program.
                                endnotes
    \1\ Center for American Progress, www.americanprogress.org/issues/
2009/03/econ--snapshot--0309.html, March 2009.
    \2\ Vicky Lovell, Institute for Women's Policy Research, Women and 
Paid Sick Days: Crucial for Family Well-Being, 2007.
    \3\ Economic Policy Institute, Minimum Wage Issue Guide, 2007, 
www.epi.org/content.cfm/issueguides--minwage.
    \4\ Kaiser Family Foundation, ``Women, Work and Family Health: A 
Balancing Act,'' Issue Brief, April 2003.
    \5\ Vicky Lovell, Institute for Women's Policy Research, No Time to 
be Sick, 2004.
    \6\ Gibson, Mary Jo and Houser, Ari, ``Valuing the Invaluable: A 
New Look at the Economic Value of Family Caregiving.'' AARP, June 2007.
    \7\ Jane Gross, ``Study Finds Higher Costs for Caregivers of 
Elderly,'' New York Times, 11/19/07.
    \8\ Vicky Lovell, Institute of Women's Policy Research, Valuing 
Good Health: An Estimate of Costs and Savings for the Healthy Families 
Act, 2005.
    \9\ Department of Labor 2000 Report at 2-16.
    \10\ Id. at 4-5--4-6.
    \11\ The David and Lucile Packard Foundation, 2001. The Future of 
Children: Caring for Infants and Toddlers. Richard Behrman, ed. Los 
Altos, California:11(1).
    \12\ Palmer S.J., Care of sick children by parents: A meaningful 
role. J Adv Nurs. 18:185, 1993.
    \13\ Families and Work Institute, Highlights of the 2002 National 
Study of the Changing Workforce, 2002.
    \14\ AARP Public Policy Institute, Update on the Aged 55+ Worker, 
2005.
    \15\ Employment Policy Foundation 2002. ``Employee Turnover--A 
Critical Human Resource Benchmark.'' HR Benchmarks (December 3): 1-5 
(www.epf.org, accessed January 3, 2005).
    \16\ Ron Goetzal, et al, Health Absence, Disability, and 
Presenteeism Cost Estimates of Certain Physical and Mental Health 
Conditions Affecting U.S. Employers, Journal of Occupational and 
Environmental Medicine, April 2004.
                                 ______
                                 

 Prepared Statement of Joe Solmonese, President, Human Rights Campaign

    Chairwoman Woolsey and Ranking Member Price: On behalf of the Human 
Rights Campaign, America's largest civil rights organization working to 
achieve lesbian, gay, bisexual and transgender (LGBT) equality and our 
over 750,000 members and supporters nationwide, I submit this statement 
in support of family-friendly workplace policies. We encourage the 
Committee and Congress to ensure such legislation covers all families, 
including those headed by lesbian and gay couples and people that are 
functioning in a parental role.
    Access to the Family and Medical Leave Act (FMLA), paid leave, and 
the ability to enroll family members in employer provided health 
insurance plans are crucial to the well-being of families headed by 
lesbian and gay couples. All families, including those headed by 
lesbian and gay couples, should have equal access to employer benefits. 
Workers with same-sex partners and children need health insurance 
coverage and the ability to take paid time off to care for themselves 
and their families without losing a paycheck and compromising their 
economic stability.
I. The Family and Medical Leave Act should be revised to include all 
        families
    For millions of workers, the FMLA has been an unmitigated success. 
It has proven essential in achieving greater employee retention and 
reducing turnover.\1\ However, because lesbian and gay employees are 
not guaranteed up to twelve weeks of family or medical leave to care 
for a partner or partner's child without fear of losing their job, the 
FMLA does not fulfill its purpose of protecting working families.
---------------------------------------------------------------------------
    \1\ Westat, Balancing the Needs of Families and Employers: Family 
and Medical Leave Surveys Table Sec.  6.2.3, Table 6.5 (2001), http://
www.dol.gov/esa/whd/fmla/fmla/toc.htm.
---------------------------------------------------------------------------
    Some states and private employers have filled the gap in FMLA 
coverage by offering family medical leave for workers to care for a 
domestic partner.\2\ However, an expansion of the FMLA is needed in 
order to cover millions more of America's families.
---------------------------------------------------------------------------
    \2\ The following states under their respective state FMLAs extend 
benefits that include same-sex couples: Massachusetts extend benefits 
to spouses; Connecticut extends benefits to spouses and parties in a 
civil union; California and the District of Columbia extend benefits to 
registered domestic partners; New Jersey, and Vermont provide benefits 
to parties in a civil union; Hawaii provides benefits to reciprocal 
beneficiaries; and Oregon and Rhode Island provide benefits to family 
members which includes same-sex domestic partners; New Mexico provides 
benefits to same-sex spouses so long as they were married out-ofstate 
in a state that recognizes marriage for same-sex couples.
---------------------------------------------------------------------------
    Congress should seek ways to expand the law and to extend coverage 
to all workers and their families, including those led by same-sex 
couples. Lesbian, gay and bisexual workers experience the same levels 
of stress, lack of productivity, distraction and fear of job loss as do 
others when their domestic partners become ill, are hospitalized or 
cared for by others. The FMLA does not, however, guarantee these 
employees the same leave opportunities to care for their loved ones.
    One option to remedy this glaring inequity would be for Congress to 
pass the Family and Medical Leave Inclusion Act,\3\ introduced in the 
110th Congress by Representative Carolyn Maloney, (D-NY) and soon to be 
introduced in the 111th Congress. The legislation expands the FMLA to 
permit an employee to take up to twelve weeks of unpaid leave from work 
if his or her domestic partner or same-sex spouse has a serious health 
condition. It would also permit employees to take unpaid leave to care 
for a ``parent-in-law, adult child, sibling or grandparent.''
---------------------------------------------------------------------------
    \3\ H.R. 2792, 110th Cong. (2007).
---------------------------------------------------------------------------
II. Paid sick leave legislation should include all families
    Legislation that would provide paid sick leave to American workers 
should cover all American families equally, including those headed by 
lesbian and gay couples. Paid sick leave legislation such as the 
Healthy Families Act\4\ introduced in the 110th Congress by 
Representative DeLauro (D-NY) and soon to be introduced in the 111th 
Congress, would provide great relief for millions of American families. 
The Act would provide most workers with seven paid sick days each year 
to care for certain close family members or to address serious personal 
health concerns.
---------------------------------------------------------------------------
    \4\ H.R. 1542, 110th Cong. (2007).
---------------------------------------------------------------------------
    Far too few of those working in America have a single day of paid 
sick leave--and low-wage workers are hit the hardest. Providing paid 
sick days is essential for working Americans and their families to 
ensure they can take time for regular preventive medical check-ups or 
to care for a sick family member without risking their job.
    Failure to address this problem puts our public health and economy 
at risk. Nationally, nearly half of private sector workers have no paid 
sick leave.\5\ When one worker has no alternative but to go to work 
sick, all workers are at increased risk of contagion and lowered 
productivity.
---------------------------------------------------------------------------
    \5\ Vicky Lovell, Ph.D., No Time to be Sick: Why Everyone Suffers 
When Workers Don't Have Paid Sick Leave, Institute for Women's Policy 
Research, May 2004, citing U.S. Department of Labor statistics from 
1996, 1997 and 1998.
---------------------------------------------------------------------------
    Workers with same-sex partners and children need the ability to 
take paid time off to care for themselves and their families without 
losing a paycheck and compromising their economic stability. Due to the 
inherent inequity in access to federal benefits for same-sex couples 
and their children, including the benefits provided by the FMLA, using 
an employer's paid leave structure is often the only option when 
tending to the long-term illness of a partner or other family member. 
For those families whose employers do not provide paid leave, there are 
no options beyond missing work, as well as a paycheck, or losing a job 
entirely.
    Many employers have already included families headed by lesbian and 
gay couples for purposes of family sick leave. The HRC Foundation 
tracks employers that provide domestic partner-inclusive health 
benefits. Since 2006, a majority of Fortune 500 companies have offered 
benefits to same-sex partners of employees. Today, 57 percent--a total 
of 286--of the Fortune 500 companies offer domestic partner benefits. 
These employers and state governments realize that not providing health 
benefits to these workers greatly limits their ability to maintain a 
stable and continuous workforce by helping employees retain their jobs 
when a family emergency strikes. We encourage Congress to follow their 
lead.
III. Paid leave should include families headed by lesbian and gay 
        couples
    To further ensure families are able to take the time they need 
while maintaining their financial security, we support legislation that 
would provide paid leave under the FMLA. Legislation such as the Family 
Leave Insurance Act,\6\ introduced in the 110th Congress by 
Representative Stark (D-CA) and soon to be introduced in the 111th 
Congress, provides for paid FMLA leave and explicitly includes families 
headed by lesbian and gay couples. Such legislation is a necessary and 
welcome improvement to the FMLA.
---------------------------------------------------------------------------
    \6\ H.R. 5873, 110th Cong. (2008).
---------------------------------------------------------------------------
    The Act provides essential benefits to employees seeking to take 
leave to care for a domestic partner and their children. The Act gives 
access not only to crucial FMLA leave benefits for families headed by 
lesbian and gay couples, but also ensures this leave will be paid. Such 
leave will allow all working families the opportunity to provide care 
when it is needed most.
    This benefit will also provide relief to low income workers, 
considerably improving their lives, the health of their families, and 
their ability to spend vital time with new children.
    The wage replacement offered through the Act guarantees that those 
who need paid leave most have access to it.
IV. Congress should act to extend domestic partner benefits to Federal 
        employees
    In addition to expanding FMLA leave and providing paid sick leave, 
the federal government, as the nation's largest employer, must 
guarantee access to the full scope of benefits to its employees with 
same-sex partners. The Domestic Partnership Benefits and Obligations 
Act (DPBO) \7\ introduced in the 110th Congress and soon to be 
introduced in the 111th Congress by Representative Baldwin (D-WI) will 
ensure families headed by lesbian and gay couples have access to such 
benefits.
---------------------------------------------------------------------------
    \7\ H.R. 4838, 110th Cong. (2007).
---------------------------------------------------------------------------
    The Act would provide domestic partnership benefits to the same-sex 
partners of federal civilian employees on the same basis as spousal 
benefits. These benefits would include participation in applicable 
retirement programs, compensation for work injuries, and long-term care 
and life insurance benefits.
    These benefits, provided through DPBO, would also ensure that the 
partners of lesbian, gay and bisexual federal employees will be able to 
access important health care benefits, like prenatal care, and to 
ensure that their families stay healthy.
V. Corporate America and the States are leading the way
    Traditionally the federal government has been a leader in providing 
benefits, but now it lags behind the majority of Fortune 500 companies 
with regard to crucial benefits for its employees. Corporate America 
recognizes that one key to remaining competitive is to have an 
inclusive workforce. State and local governments have begun adopting 
this view as well. Currently, 16 states and over 200 local governments 
offer their public employees domestic partnership benefits.
    By offering the full range benefits to the domestic partners of 
federal employees, Congress can bring the employment practices of the 
federal government in line with those of America's largest and most 
successful corporations. Extending these benefits will allow the 
federal government to recruit and retain a qualified and diverse 
workforce. It is time for the federal government to follow the lead of 
these employers and extend all employment related benefits to families 
headed by same-sex couples.
VI. Conclusion
    We encourage this Committee to consider legislation that expands 
the FMLA, provides paid leave and offers domestic partnership benefits. 
Benefits comprise a significant portion of all employee compensation 
and failing to provide them to all employees results in unequal pay for 
equal work. The public supports these principles. A December 2008 
survey conducted by Princeton Survey Research Associates International 
for Newsweek found that 73% of Americans favor extending ``health 
insurance and other employee benefits for gay and lesbian domestic 
partners.'' A May 2000 poll conducted by the Associated Press found 
that a majority of Americans favor the extension of health insurance 
coverage to same-sex partners.
    Such legislation would not only improve the quality of our nation's 
workforce, but also demonstrate a commitment to fairness and equality 
for all Americans. Thank you.
                                 ______
                                 
    [Additional information submitted by Ms. Boushey follows:]

              Additional Remarks Submitted by Ms. Boushey

    There were a number of issues brought up during the question and 
answer period of the hearing on March 3, 2009 that I would like to 
elaborate on.
    1. Michelle Bernard said that if the government required firms to 
provide benefits for families, such as paid sick days or paid family 
and medical leave, then firms would refuse to hire female workers.
    There is evidence that ill-designed policies will encourage only 
women to use leaves for caregiving, which could affect women's 
employment and upward mobility. On the other hand, however, the lack of 
family-friendly workplace policies is already hurting women's 
employment and upward mobility as those who need time off to provide 
care often have to choose between a job and their families.\1\
---------------------------------------------------------------------------
    \1\ E. Bravo, ``Taking on The Big Boys'' (New York, NY: The 
Feminist Press at the City University of New York, 2007)
---------------------------------------------------------------------------
    The right answer is for policymakers to design policies that 
encourage both men and women to make use of caregiving leaves. Research 
shows that when leaves are available, but are unpaid, it is harder for 
families to allow male workers to make use of the leave time because 
the family cannot go without his, typically higher, earnings.\2\ Paying 
all workers for sick days and family and medical leave would make it 
more likely that families could make use of leave time.
---------------------------------------------------------------------------
    \2\ J.C. Gornick and M.K. Meyers, ``Families That Work'' (New York, 
NY: Russell Sage Foundation, p.120, 2003)
---------------------------------------------------------------------------
    2. Michelle Bernard proposed that rather than setting up an 
insurance fund to provide paid family and medical leaves, the 
government introduce a 401(k)-type savings plan so that families could 
save up income for when they needed it during a family and medial 
leave. This idea would not be effective in solving most family's need 
for paid leave for the birth of a child. The average age for a woman to 
have her first child is 25.\3\ It would be virtually impossible for 
young families to save up enough in a fund to pay for their leave time. 
An insurance fund allows the costs to be spread across a worker's 
lifetime, such as Social Security, thus helping workers afford time off 
when they are young and need it to care for and bond with a new child.
---------------------------------------------------------------------------
    \3\ Matthews, T. J. and B. E. Hamilton, ``Mean Age of Mother, 
1970--2000'' (Hyattsville, MD: National Center for Health Statistics, 
National Vital Statistics Reports; Vol. 51, No. 1., 2002)
---------------------------------------------------------------------------
    3. Michelle Bernard suggested that every worker in the United 
States should negotiate individually over access to family friendly 
benefits. That is, for the most part, the system we currently have and 
we can clearly see the results. Currently, higher-waged workers are far 
more likely than lower-waged workers to have access to paid time off 
and workplace flexibility.\4\ Allowing ``the market'' to dictate who 
has access to these benefits disproportionately burdens the least-paid 
workers, who are often younger, as they do not have the power to 
negotiate for these benefits.
---------------------------------------------------------------------------
    \4\ Bureau of Labor Statistics, ``Workers on Flexible and Shift 
Schedules'' (http://www.bls.gov/news.release/pdf/flex.pdf, May 2004)
---------------------------------------------------------------------------
    4. Dr. Eileen Appelbaum noted that mandating all firms to provide 
family leave insurance may be ``unfair to employers.'' The point of 
that remark was not to imply that family-friendly benefits are 
inappropriate for a recession, but rather that setting up these kinds 
of programs involves initial administrative and other costs for state 
governments. Using federal funds as an incentive to states to set up 
these programs would serve the public interest by encouraging the 
states to act as innovators in providing family leave insurance to 
workers who must care for their own or a family member's serious 
illness, recover from childbirth, or bond with a new child. This is an 
excellent way to encourage good business practices and make it easier 
for workers to support their families.
    5. When the government regulates the labor market (or any market), 
it levels the playing field. The good actors who are now providing paid 
sick days or other family-friendly benefits now do have to compete with 
firms that do not offer those benefits.\5\ The government mandate thus 
helps the good firms most.
---------------------------------------------------------------------------
    \5\ Appelbaum and Milkman (2007)
---------------------------------------------------------------------------
                                 ______
                                 
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
